<html>
<title> - EXAMINING THE SCIENCE OF EPA OVERREACH: A CASE STUDY IN TEXAS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                EXAMINING THE SCIENCE OF EPA OVERREACH:
                         A CASE STUDY IN TEXAS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                            FEBRUARY 5, 2014

                               ----------                              

                           Serial No. 113-64

                               ----------                              

 Printed for the use of the Committee on Science, Space, and Technology

     EXAMINING THE SCIENCE OF EPA OVERREACH: A CASE STUDY IN TEXAS




                EXAMINING THE SCIENCE OF EPA OVERREACH:
                         A CASE STUDY IN TEXAS

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2014

                               __________

                           Serial No. 113-64

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
88-134                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
VACANCY


                            C O N T E N T S

                            February 5, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    10

                               Witnesses:

The Honorable Bryan Shaw, Chairman, Texas Commission on 
  Environmental Quality
    Oral Statement...............................................    12
    Written Statement............................................    14

The Honorable David Porter, Commissioner, Railroad Commission of 
  Texas
    Oral Statement...............................................    27
    Written Statement............................................    29

Mr. Kenneth Dierschke, President, Texas Farm Bureau
    Oral Statement...............................................    69
    Written Statement............................................    72

Dr. Elena Craft, Health Scientist, Environmental Defense Fund
    Oral Statement...............................................    75
    Written Statement............................................    77

Dr. Bernard Weinstein, Associate Director of the Maguire Energy 
  Institute, Cox School of Business, Southern Methodist 
  University
    Oral Statement...............................................    92
    Written Statement............................................    95

Discussion.......................................................   106

             Appendix I: Answers to Post-Hearing Questions

The Honorable Bryan Shaw, Chairman, Texas Commission on 
  Environmental Quality..........................................   130

The Honorable David Porter, Commissioner, Railroad Commission of 
  Texas..........................................................   152

Mr. Kenneth Dierschke, President, Texas Farm Bureau..............   158

Dr. Bernard Weinstein, Associate Director of the Maguire Energy 
  Institute, Cox School of Business, Southern Methodist 
  University.....................................................   160

            Appendix II: Additional Material for the Record

Letter from Range Resources, submitted by Representative Lamar S. 
  Smith, Chairman, Committee on Science, Space, and Technology...   164

Report from U.S. Senator Ted Cruz, submitted by Representative 
  Lamar S. Smith, Chairman, Committee on Science, Space, and 
  Technology.....................................................   171

Comments from Air Alliance Houston, submitted by Representative 
  Eddie Bernice Johnson, Ranking Member, Committee on Science, 
  Space, and Technology..........................................   177

Letter from the Environmental Integrity Project, submitted by 
  Representative Eddie Bernice Johnson, Ranking Member, Committee 
  on Science, Space, and Technology..............................   179

Letter from the Lone Star Sierra Club, submitted by 
  Representative Eddie Bernice Johnson, Ranking Member, Committee 
  on Science, Space, and Technology..............................   193

Letter from Mr. Steve Lipsky of Weatherford, Texas, submitted by 
  Representative Eddie Bernice Johnson, Ranking Member, Committee 
  on Science, Space, and Technology..............................   221

Letter from the Texas Association of Business, submitted by 
  Representative Ralph M. Hall, Chairman Emeritus, Committee on 
  Science, Space, and Technology.................................   222

Report from the Texas Commission on Environmental Quality, 
  submitted by Representative Randy Neugebauer, Committee on 
  Science, Space, and Technology.................................   230

Letter from the Water Advocacy Coalition, submitted by 
  Representative David Schweikert, Committee on Science, Space, 
  and Technology.................................................   239

Press release from the Georgia Department of Law, submitted by 
  Representative Paul C. Broun, Committee on Science, Space, and 
  Technology.....................................................   244


                EXAMINING THE SCIENCE OF EPA OVERREACH:
                         A CASE STUDY IN TEXAS

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2014

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.

[GRAPHIC] [TIFF OMITTED] T8134.001

[GRAPHIC] [TIFF OMITTED] T8134.002

[GRAPHIC] [TIFF OMITTED] T8134.003

[GRAPHIC] [TIFF OMITTED] T8134.004

[GRAPHIC] [TIFF OMITTED] T8134.005


    Chairman Smith. Good morning to you all and welcome to 
today's hearing titled ``Examining the Science of EPA 
Overreach: A Case Study in Texas.''
    Before I recognize myself for an opening statement, I do 
want to recognize someone in the audience. We have a State 
Representative, actually one of my State Representatives back 
home, Doug Miller, on the left on the front row. And, Doug, I 
appreciate your being here today.
    I will recognize myself for an opening statement.
    The devastating impact of EPA's overreach can be felt from 
state houses to farmhouses across the Nation. Americans are 
tired of the red tape that hampers economic growth. EPA's 
regulatory ambitions threaten states' rights and intrude on the 
everyday lives of our citizens. That is why today's hearing is 
important. And that is why this is not just a hearing about 
Texas. The Lone Star State is merely a case study. So while we 
will hear testimony today from the perspective of several 
Texans, the chilling impacts of federal intrusion are felt by 
residents of every state.
    Perhaps the worst examples of massive government expansion 
are found in EPA's air rules. New regulations rely on unproven 
technologies and secret science to justify the tremendous cost. 
Even EPA admits its new power plant rules will have very little 
benefit; however, they will have a very real impact on the 
energy bills of hardworking American families.
    The EPA's efforts to demonize hydraulic fracturing are 
another example of an agency putting partisan politics above 
sound science. After recklessly making wild claims of 
contamination, EPA was forced to retract those claims when the 
facts came out. The Agency's ``shoot first, ask questions 
later'' attitude is not responsible.
    Clearly, the EPA is too busy expanding its own powers to 
slow down long enough to listen to its own scientists. This 
problem is evident with the Agency's draft Clean Water Act 
rule. EPA didn't even wait on the Scientific Advisory Board's 
review and instead steamrolled ahead, muzzling voices of 
dissent along the way.
    The EPA's Draft Water Rule is a massive power grab that 
undermines states' rights and gives the federal government 
control over Americans' private property. EPA wants to tell 
Americans what to do in their own backyard. But states and 
communities across the country are fighting back to reclaim 
control of their own resources. For instance, working toward a 
cleaner environment in Texas does not have to be at the expense 
of economic growth.
    State regulators know how to protect the environment within 
their borders better than federal employees in Washington, D.C. 
Texas has the second-largest population in the Nation, is home 
to six of the largest U.S. cities and our economic growth far 
outpaces the national average. But even with the Nation's 
largest industrial sector, Texas had made vast improvements in 
air quality. For example, from 2000 to 2012, ozone levels in 
Texas decreased by 23 percent. The rest of the Nation averaged 
only an 11 percent decrease in ozone levels.
    This success was reached through a collaborative effort 
that included the Texas State Legislature, state agencies, 
local governments, industry, and universities. These groups 
worked together to design and implement creative and targeted 
regulatory controls. Localized data provides state regulators 
with the information they need to create effective, targeted 
air and water quality management.
    Unfortunately, too many within this Administration believe 
that the only way to protect our environment is through federal 
government intervention and centralized ownership. In the real 
world, competition drives innovation, private ownership 
inspires stewardship, and smaller government empowers free 
people. We cannot lose track of these fundamental truths.
    Our Constitution requires a collaborative relationship, not 
a federal takeover. This is why we should listen to voices from 
the states. It is in everybody's best interest for agencies 
like the EPA to help support these state efforts, not hinder 
them.
    That concludes my opening statement.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    The devastating impact of EPA's overreach can be felt from state 
houses to farmhouses across the nation. Americans are tired of the red 
tape that hampers economic growth. EPA's regulatory ambitions threaten 
states' rights and intrude on the every-day lives of our citizens.
    That's why today's hearing is important. And that's why this is not 
just a hearing about Texas. The Lone Star State is merely a case study. 
So while we will hear testimony today from the perspective of several 
Texans, the chilling impacts of federal intrusion are felt by residents 
of every state.
    Perhaps the worst examples of massive government expansion are 
found in EPA's air rules. New regulations rely on unproven technologies 
and secret science to justify the tremendous costs. Even EPA admits its 
new power plant rules will have very little benefit; however, they will 
have a very real impact on the energy bills of hard-working American 
families.
    The EPA's efforts to demonize hydraulic fracturing are another 
example of an Agency putting partisan politics above sound science. 
After recklessly making wild claims of contamination, EPA was forced to 
retract those claims when the facts came out. The Agency's ``shoot 
first, ask questions later'' attitude is irresponsible.
    Clearly, the EPA is too busy expanding its own powers to slow down 
long enough to listen to its own scientists. This problem is evident 
with the Agency's draft Clean Water Act rule. EPA didn't have time to 
wait on the Scientific Advisory Board review and instead steamrolled 
ahead, muzzling voices of dissent along the way.
    The EPA's draft water rule is a massive power grab that undermines 
state's rights and gives the federal government control over Americans' 
private property. EPA wants to tell Americans what to do in their own 
back yard.
    But states and communities across the country are fighting back to 
reclaim control of their own resources. For instance, working toward a 
cleaner environment in Texas does not have to be at the expense of 
economic growth.
    State regulators know how to protect the environment within their 
borders better than federal employees in Washington DC. Texas has the 
second largest population in the nation, is home to six of the largest 
U.S. cities and our economic growth far outpaces the national average. 
But even with the nation's largest industrial sector, Texas had made 
vast improvements in air quality.
    For example, from 2000 to 2012, ozone levels in Texas decreased by 
23 percent. The rest of the nation averaged an 11 percent decrease in 
ozone levels.
    This success was reached through a collaborative effort that 
included the Texas state legislature, state agencies, local 
governments, industry and universities. These groups worked together to 
design and implement creative and targeted regulatory controls. 
Localized data provides state regulators with the information they need 
to create effective, targeted air and water quality management.
    Unfortunately, too many within this administration believe that the 
only way to protect our environment is through federal government 
intervention and centralized ownership. This is the wrong way.
    In the real world, competition drives innovation, private ownership 
inspires stewardship and smaller government empowers free people. We 
cannot lose track of these fundamental truths.
    Our Constitution requires a collaborative relationship, not a 
federal take-over. This is why we must listen to voices from the 
states. It's in everybody's best interest for agencies like the EPA to 
help support these state efforts, not hinder them.

    Chairman Smith. Without objection, I would like to ask 
unanimous consent to put a letter in the record, and this is a 
letter from Range Resources concerning EPA's investigation into 
the impacts of hydraulic fracturing in Parker County, Texas. 
Those claims resulted in EPA enforcement action, which was 
subsequently withdrawn and the Texas Railroad Commission 
thoroughly investigated this issue and found that Range's 
activities had no impact on water quality. And I would like the 
rest of the letter to be entered into the record without 
objection.
    [The information appears in Appendix II]
    Chairman Smith. At this point I will recognize the Ranking 
Member, the gentlewoman from Texas, Eddie Bernice Johnson, for 
her opening statement.
    Ms. Johnson. Thank you, Mr. Chairman. And thank you to our 
witnesses for being here this morning.
    I am always proud to be in a room full of Texans. As a 
native Texan, I know well the importance and the impact of oil 
and natural gas development in this country. Our economy has 
relied on fossil fuels to power our manufacturing base, our 
transportation and agricultural sectors, and more. And for the 
foreseeable future, the country will continue to develop these 
resources and technologies to achieve our energy, economic, 
national security, and in some cases, our environmental 
objectives. However, we must acknowledge that the development 
of any fossil fuels resource can have significant negative 
environmental impacts. I am not speaking about the environment 
in the abstract but about the very oceans we fish, the air we 
breathe, and the water we drink. These, too, have real economic 
value.
    While few people get rich from clean air and water, 
everybody benefits. Likewise, nobody should have the right to 
take these away, regardless of the potential for financial 
profit. This is why we have EPA and why Congress has acted in 
the past to protect our air and water through legislation such 
as the Clean Water Act and the Safe Drinking Water Act with the 
results being just that, cleaner air and safer drinking water, 
and that is something that both Democrats and Republicans 
should be happy about.
    Today, we will hear from some Members and witnesses that 
EPA is acting beyond its authority, that EPA regulations are 
killing the economy and jobs, and that the industry and the 
State of Texas do not need the federal government to tell them 
how to protect public health and the environment. As much as 
some might wish for a world where environmental issues are 
addressed voluntarily by industry or through the workings of 
the free market or through individual state regulations, we all 
know that from experience it just does not work that way.
    Now, more than ever, American people need a strong EPA to 
protect their right to clean air and water. These are people 
who, regardless of where they fall in the partisan divide, 
universally agree clean air and water are important to them and 
to their children and they know that respiratory diseases--and 
we have records to show it--heart attacks and premature deaths 
are not part of the sacrifice we should have to make for the 
sake of achieving the American dream.
    Mr. Chairman, I have received a number of letters from 
Texans expressing their concern about the air and water in 
their communities and their hope that EPA and the state will do 
more and I ask that these letters be made a part of the record.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Ms. Johnson. Let me be clear. I firmly believe that we have 
both a strong economy and a safe and healthy environment. In 
fact, there is much more evidence showing jobs are created and 
economy expands following the passage of major environmental 
reforms. For example, between 1970 and 2011 air pollution 
dropped 60 percent while the Nation's gross domestic product 
grew by 212 percent and the number of private sector jobs 
increased by 88 percent.
    As someone who worked in public health before I entered 
politics, I can think of no mission of the federal government 
that is more important or noble than EPA's mission to protect 
human health and the environment. I am hopeful that Congress 
will get past this misguided and disingenuous war on the 
dedicated scientists and public servants of the EPA and that we 
can come to advance our economy and a cleaner environment and a 
healthier public.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Smith, and thank you to our witnesses for being 
here this morning. I am always proud to be in a room full of Texans. As 
a Texan, I know well the importance and the impact of oil and natural 
gas development in this country. Our economy has relied on fossil fuels 
to power our manufacturing base, our transportation and agricultural 
sectors, and more. And, for the foreseeable future, the country will 
continue to develop these resources and technologies to achieve our 
energy, economic, national security, and, in some cases, our 
environmental objectives.
    However, we must acknowledge that the development of any fossil 
fuel resource can have significant negative environmental impacts. I am 
not speaking about the environment in the abstract, but about the very 
oceans we fish, the air we breathe, and the water we drink. These too 
have real economic value. While few people get rich from clean air and 
water, everybody benefits. Likewise, nobody should have the right to 
take those away, regardless of the potential for financial profit. This 
is why we have an EPA, and why Congress has acted in the past to 
protect our air and water through legislation such as the Clean Air Act 
and the Safe Drinking Water Act, with the results being just that--
cleaner air and safer drinking water. And that's something that both 
Democrats and Republicans should be happy about.
    Today we will hear from some Members and witnesses that EPA is 
acting beyond its authority, that EPA regulations are killing the 
economy and jobs, and that industry and the state of Texas do not need 
the federal government to tell them how to protect public health and 
the environment. As much as some might wish for a world where big 
environmental issues are addressed voluntarily by industry or through 
the workings of the free market, or through individual state 
regulations, we all know from experience that it just does not work 
that way.
    Now, more than ever, the American people need a strong EPA to 
protect their right to clean air and water. These are people who, 
regardless of where they fall in the partisan divide, universally agree 
clean air and water are important to them and their children. And they 
know that respiratory diseases, heart attacks, and premature deaths are 
not part of the sacrifice we should have to make for the sake of 
achieving the ``American Dream.'' [Mr. Chairman, I received a number of 
letters from Texans expressing their concern about the air and water in 
their communities and their hope that EPA and the state will do more; 
I'm attachingthese letters to my statement as part of the record.]
    Let me be clear. I firmly believe we can have both a strong economy 
and a safe and healthy environment. In fact, there is much more 
evidence showing jobs are created and the economy expands following the 
passage of major environmental reforms. For example, between 1970 and 
2011, air pollution dropped 68 percent, while the nation's gross 
domestic product grew by 212 percent and the number of private sector 
jobs increased by 88 percent.
    As someone who worked in public health before I entered politics, I 
can think of no mission of the federal government that is more 
important or noble than EPA's mission to ``protect human health and the 
environment.'' I am hopeful that Congress can get past this misguided 
and disingenuous war on the dedicated scientists and public servants of 
the EPA, and that we can come together to advance our economy and a 
cleaner environment and healthier public.
    Thank you and I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    At this point I will introduce our witnesses today. Our 
first witness is Hon. Bryan Shaw, Chairman of the Texas 
Commission on Environmental Quality. Dr. Shaw was appointed to 
the TCEQ by Governor Rick Perry in 2007 and was appointed 
Chairman in 2009. Dr. Shaw previously served as a member of the 
U.S. Environmental Protection Agency Science Advisory Board, 
Committee on Integrated Nitrogen, the Environmental Engineering 
Committee, and the ad hoc panel for Review of EPA's Risk and 
Technology Review Assessment Plan. Dr. Shaw received his 
bachelor's and master's degrees in agricultural engineering 
from Texas A&M and a Ph.D. in agricultural engineering from the 
University of Illinois.
    Our next witness is Hon. David Porter, Commissioner of the 
Railroad Commission of Texas. Commissioner Porter was appointed 
by Governor Perry as the official representative of Texas on 
the Interstate Oil and Gas Compact Commission and on the 
Interstate Mining Compact Commission. Before taking office, 
Commissioner Porter built a successful small business around 
his CPA practice. He earned his bachelor's degree in accounting 
from Harding University.
    Our third witness today is Dr. Kenneth Dierschke, President 
of the Texas Farm Bureau. Mr. Dierschke first served on the Tom 
Green County Farm Bureau Board in 1975 and was elected 
President. He became State Director for Texas District 6 in 
1996. He later became Vice President of Texas Farm Bureau in 
December 2000 and President in 2002. Dr. Dierschke is a fourth-
generation farmer who raises cotton and milo.
    Our next witness is Dr. Elena Craft, Health Scientist at 
the Environmental Defense fund. Dr. Craft has worked on toxic 
air issues focusing specifically on reducing toxic air 
chemicals and greenhouse gas emissions from the energy and 
transportation sectors. Her efforts have led to the creation of 
clean truck programs in Houston and other ports around the 
Southeast. Dr. Craft was appointed to serve a two-year term on 
EPA's Environmental Justice Technical Review Panel. Dr. Craft 
received her bachelor's degree from the University of North 
Carolina, her master's in toxicology from North Carolina State 
University, and her Ph.D. from Duke University.
    Our final witness today is Dr. Bernard Weinstein, Associate 
Director of the Maguire Energy Institute for the Cox School of 
Business at Southern Methodist University. Dr. Weinstein was 
previously the Director of the Center for Economic Development 
and Research at the University of North Texas where he is now 
an emeritus professor of applied economics. Dr. Weinstein has 
authored or coauthored numerous books, monographs, and articles 
on economic development, energy security, public policy, and 
taxation. He has also previously served as Director of Federal 
Affairs for the Southern Growth Policies Board and Chairman of 
the Texas Economic Policy Advisory Council. He received both 
his master's degree and his Ph.D. from Columbia University.
    We welcome you all and appreciate your time and your 
testimony. And, Dr. Shaw, we will begin with you.

             TESTIMONY OF THE HONORABLE BRYAN SHAW,

                 CHAIRMAN, TEXAS COMMISSION ON

                     ENVIRONMENTAL QUALITY

    Hon. Shaw. Good morning. Thank you, Chairman Smith. Thank 
you, Ranking Member Johnson and Members, for the opportunity to 
be here today.
    I have spoken on many occasions about the overreach that we 
have perceived in Texas from EPA with regard to environmental 
regulations, including the Flexible Permits Program, which we 
have instigated in Texas--implemented in Texas to help us to 
achieve environmental goals, greenhouse gas, as well as the 
Cross State Air Pollution Rule.
    I want to talk today about some of the challenges that we 
face from the standpoint of communications and how poor 
communications have exacerbated the challenges that we have had 
with regard to EPA overreach and specifically failure to follow 
the cooperative federalism that seems to make sense and that we 
in Texas believe leads to the best environmental results while 
protecting the economy and those who are least available to 
afford high cost of energy and other goods and services.
    It is clear I think at this point that most people agree 
and certainly the courts have that EPA actions with regard to 
Texas Flexible Permits Program were an overreach of the federal 
authority. We had many--numerous attempts to reach out to EPA 
and to try to explain that indeed our program met the federal 
requirements. I think the lack of desire by EPA to engage with 
us and that is best captivated by a statement--or captured by a 
statement made largely by Dr. Armendariz when he pointed out 
that EPA didn't want nor like the Flexible Permits Program even 
though we had illustrated that that program met the federal 
requirements. That led to numerous hours and failure of 
opportunity to achieve even greater environmental benefit 
because we were basically defending a program that was put in 
place to help us to achieve our environmental goals.
    Apparently, the courts agreed with the state's assessment 
that indeed that was an overreach. They struck down the EPA's 
determination to disapprove the Flexible Permits Program, and 
in fact, in a rather scathing comment indicated that EPA even 
wanted to dictate the sentence structure of the state's 
program. This failed communication and overreach from EPA 
resulted obviously in lots of loss and cost that took our eye 
off the ball of being able to achieve greater environmental 
benefit.
    With regard to the Cross State Air Pollution Rule, among 
other concerns, EPA failed to allow for adequate notice and 
comment. Our request for opportunity to meet with EPA to be 
able to explain and identify issues that were of importance in 
their rulemaking were denied, and what that led to, amongst 
other things, was that EPA made changes to the rule after 
publication, which was based on the assumption--the faulty 
assumption that Texas had about 90,000 megawatts of electric 
generating capacity when in fact we had only 72,000. Had the 
courts--the D.C. Circuit Court not struck down that rule, that 
would have led to a great threat to electric reliability in the 
State of Texas, and so fortunately, that was struck down, 
although it is being appealed to the Supreme Court at this 
point. Again, failed communications exacerbated the impact of 
this federal overreach.
    Fortunately, Texas is a case study not only of some of the 
negative impacts, but we have had some recent positive impacts 
of communication. We still I think have concerns over federal 
overreach, but whenever Ron Curry was named as the regional 
administrator for EPA, I immediately reached out to him and he 
was very receptive and we have agreed and have had regular 
communications since. I believe that those regular 
communications have led to some progress, and in fact, 
yesterday, EPA signed off--or, excuse me, last Wednesday EPA 
signed off on approving the Flexible Permits Program, which, 
while it may be a small victory and that we clearly, as the 
courts have shown, were in the--in order--in keeping with 
federal requirements, it is--at least shows that we--
demonstrates that we can cooperate and work together.
    Furthermore, yesterday, Ron Curry informed me that he 
signed off a process that was going to help to expedite 
transfer of greenhouse gas permitting authority to the State of 
Texas so that while we are waiting for appeals to go before the 
Supreme Court on greenhouse gases, we can move forward with 
trying to expedite greenhouse gas permitting in the State of 
Texas, which will increase our ability to continue to meet the 
needs of a growing population both from electrical generation 
and jobs and economic development.
    So we need moving forward to have even greater cooperative 
federalism in practice. Good communication and state 
flexibility are paramount as EPA develops rules and regulations 
associated not only with development--regulating new sources of 
greenhouse gases but also as they are looking in considering 
how to deal with existing sources. I am concerned that we do 
need indeed to have great involvement because EPA's actions 
with regard to new sources whereby a rule that they indicated 
would have no impact because there would be no coal-fired power 
plants built, they made the extraordinary determination that 
carbon capture and sequestration is demonstrated technology 
even though there are no projects where it has been 
demonstrated. The only projects under development are those 
that have received extreme federal support. And so I think that 
there is great concern that EPA is getting the camel's nose 
under the tent with that rule and that we need to see how they 
are planning to move forward with regulating existing sources.
    Thank you for the opportunity to present and I would be 
happy to answer questions at the time that it is appropriate. 
Thank you.
    [The prepared statement of Hon. Shaw follows:]

    [GRAPHIC] [TIFF OMITTED] T8134.062
    
    [GRAPHIC] [TIFF OMITTED] T8134.063
    
    [GRAPHIC] [TIFF OMITTED] T8134.064
    
    [GRAPHIC] [TIFF OMITTED] T8134.065
    
    [GRAPHIC] [TIFF OMITTED] T8134.066
    
    [GRAPHIC] [TIFF OMITTED] T8134.067
    
    [GRAPHIC] [TIFF OMITTED] T8134.068
    
    [GRAPHIC] [TIFF OMITTED] T8134.069
    
    [GRAPHIC] [TIFF OMITTED] T8134.070
    
    [GRAPHIC] [TIFF OMITTED] T8134.071
    
    [GRAPHIC] [TIFF OMITTED] T8134.072
    
    [GRAPHIC] [TIFF OMITTED] T8134.073
    
    [GRAPHIC] [TIFF OMITTED] T8134.074
    
    Chairman Smith. Thank you, Dr. Shaw.
    Mr. Porter.


            TESTIMONY OF THE HONORABLE DAVID PORTER,

           COMMISSIONER, RAILROAD COMMISSION OF TEXAS

    Hon. Porter. Hello. I am David Porter, Texas Railroad 
Commissioner. I would like to thank the Committee for holding 
this important hearing and inviting me to testify.
    The Texas Railroad Commission is one of the oldest, most 
historic state agencies in the country and is world-renowned 
for its thorough and mature regulatory framework. As our name 
implies, the Commission was originally established to oversee 
railroads in 1891. Today, the Railroad Commission of Texas is 
the state agency with primary regulatory jurisdiction over the 
oil, gas, propane industries, pipelines, and coal and uranium 
surface mining operations. Last year alone, the Commission 
monitored more than 410,000 active wells, issued over 21,000 
drilling permits, conducted over 125,000 field inspections, 
plugged 778 orphan wells, including 30 orphan bay wells in 
coastal waters. In addition to these functions, the Railroad 
Commission works diligently to ensure that our rules and 
regulations keep pace with the technology and practices in the 
field and remain at the forefront of environmental and public 
safety policy.
    In 2012, Texas led the way as the first state to enact laws 
requiring the mandatory reporting of fluids used in the 
hydraulic fracturing process on FracFocus. In 2013, Texas again 
was a pioneer in passing amendments to our statewide Rule 13 
and we now have some of the most stringent rules nationwide on 
well construction, cementing, and integrity standards. We also 
amended our water recycling rules to encourage oil and gas 
operators to enhance water conservation and we are updating our 
information technology systems in order to improve services and 
increase transparency. These efforts enhance the Commission's 
ongoing effectiveness in overseeing the responsible development 
of Texas' energy resources.
    One-size-fits-all regulation from a far-removed inapt 
federal agency is not the answer. The EPA recently announced 
plans to increase inspections by 30 percent over the next five 
years. On the other hand, the Railroad Commission has increased 
inspections and enforcement to parallel an increase in 
activity.
    However, nothing exemplifies the severe incompetence and 
blatant disregard for sound science as well as EPA's infamous 
mishandling of the Range Resources case in Parker County, 
Texas. In August of 2010, a homeowner in Parker County filed a 
complaint with the Commission of natural gas in his water well. 
We immediately opened an investigation and began inspecting and 
sampling the wells in question. However, the EPA, falsely 
claiming the Commission had done nothing, decided to step in 
and conducted their own investigation or what I would term a 
witchhunt.
    In December, the EPA issued a severely premature misguided 
endangerment order against Range Resources, claiming there was 
an immediate and substantial risk of explosion or fire. 
However, the Railroad Commission determined unequivocally that 
the gas found in the Parker County water wells came from the 
shallow strong gas field and was not the result of activities 
conducted by Range Resources. Moreover, the facts and records 
indicated virtually zero potential for any fire or explosion. 
Finally, in March of 2012, the EPA withdrew the endangerment 
order and dropped the lawsuit against Range Resources. 
Consequentially, Armendariz resigned and is now working for the 
Sierra Club.
    The EPA conducted the investigation they wanted in order to 
get the results they wanted and used this complaint to grab 
national media attention and further their environmental 
agenda.
    We in Texas know best how to achieve a balance of economic 
vitality and environmental safety as we responsibly and proudly 
reign as the top oil and gas producing state in the nation.
    Thank you very much and be glad to answer any questions at 
the proper--appropriate time.
    [The prepared statement of Hon. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T8134.075
    
    [GRAPHIC] [TIFF OMITTED] T8134.076
    
    [GRAPHIC] [TIFF OMITTED] T8134.077
    
    [GRAPHIC] [TIFF OMITTED] T8134.078
    
    [GRAPHIC] [TIFF OMITTED] T8134.079
    
    [GRAPHIC] [TIFF OMITTED] T8134.080
    
    [GRAPHIC] [TIFF OMITTED] T8134.081
    
    [GRAPHIC] [TIFF OMITTED] T8134.082
    
    [GRAPHIC] [TIFF OMITTED] T8134.083
    
    [GRAPHIC] [TIFF OMITTED] T8134.084
    
    [GRAPHIC] [TIFF OMITTED] T8134.085
    
    [GRAPHIC] [TIFF OMITTED] T8134.086
    
    [GRAPHIC] [TIFF OMITTED] T8134.087
    
    [GRAPHIC] [TIFF OMITTED] T8134.088
    
    [GRAPHIC] [TIFF OMITTED] T8134.089
    
    [GRAPHIC] [TIFF OMITTED] T8134.090
    
    [GRAPHIC] [TIFF OMITTED] T8134.091
    
    [GRAPHIC] [TIFF OMITTED] T8134.092
    
    [GRAPHIC] [TIFF OMITTED] T8134.093
    
    [GRAPHIC] [TIFF OMITTED] T8134.094
    
    [GRAPHIC] [TIFF OMITTED] T8134.095
    
    [GRAPHIC] [TIFF OMITTED] T8134.096
    
    [GRAPHIC] [TIFF OMITTED] T8134.097
    
    [GRAPHIC] [TIFF OMITTED] T8134.098
    
    [GRAPHIC] [TIFF OMITTED] T8134.099
    
    [GRAPHIC] [TIFF OMITTED] T8134.100
    
    [GRAPHIC] [TIFF OMITTED] T8134.101
    
    [GRAPHIC] [TIFF OMITTED] T8134.102
    
    [GRAPHIC] [TIFF OMITTED] T8134.103
    
    [GRAPHIC] [TIFF OMITTED] T8134.104
    
    [GRAPHIC] [TIFF OMITTED] T8134.105
    
    [GRAPHIC] [TIFF OMITTED] T8134.106
    
    [GRAPHIC] [TIFF OMITTED] T8134.107
    
    [GRAPHIC] [TIFF OMITTED] T8134.108
    
    [GRAPHIC] [TIFF OMITTED] T8134.109
    
    [GRAPHIC] [TIFF OMITTED] T8134.110
    
    [GRAPHIC] [TIFF OMITTED] T8134.111
    
    [GRAPHIC] [TIFF OMITTED] T8134.112
    
    [GRAPHIC] [TIFF OMITTED] T8134.113
    
    [GRAPHIC] [TIFF OMITTED] T8134.114
    
    Chairman Smith. Thank you, Mr. Porter.
    Mr. Dierschke.

              TESTIMONY OF MR. KENNETH DIERSCHKE,

                  PRESIDENT, TEXAS FARM BUREAU

    Mr. Dierschke. Mr. Chairman, I am Kenneth Dierschke, and I 
am a President of Texas Farm Bureau and a cotton farmer from 
Tom Green County, and I thank you for the promotion to doctor 
but it is Mr. Dierschke.
    In full disclosure, I am a former constituent of Chairman 
Lamar Smith under the previous composition of District 21. I 
appreciate the opportunity to appear before the Committee. We 
thank the Chairman and members of it for the important role you 
perform overseeing the EPA regulatory activities.
    Effective environmental policies balance scientific, 
economic, social, environmental outcomes. Such policies create 
opportunity for farmers to improve net farm income, enhance the 
Nation's economic opportunities, and preserve property rights 
while enabling farmers and ranchers to produce an abundant and 
affordable supply of food, fiber, and energy.
    Farmers and ranchers, like Americans in all walks of life, 
support sound environmental policy. We believe such policies 
depend on sound science. Just as the productivity of American 
agriculture is dependent on sound science to feed and clothe 
the Nation, sound science--not politicized science--must be the 
foundation of the Nation's environmental policy. We appreciate 
the oversight role of the Committee, and we support your 
efforts to ensure that sound science is used in the regulatory 
process.
    Texas farmers and ranchers are increasingly concerned about 
the intrusion into their daily operations by the Environmental 
Protection Agency and its proposed rulemaking process in an 
expansion of the Clean Water Act regulatory authority. The 
reputation of the Environmental Protection Agency among farmers 
and ranchers may be at its lowest ebb in history. We believe 
there is good reason.
    In September of 2013, EPA and U.S. Army Corps of Engineers 
sent a draft proposed rule defining the waters they intend to 
regulate under the Clean Water Act to the Office of Management 
and Budget for interagency review. We believe the draft rule 
fails to comply with important regulatory safeguards and is 
based on a scientific report that has not had sufficient peer 
review. It is troubling that EPA's ``scientific'' report 
implies that, because nearly all water is in some way 
connected, EPA's authority under the CWA is virtually 
limitless. Thus the report, currently being reviewed by the 
Science Advisory Board, disguises what is nothing more than a 
policy preference as a claim that is justified by science and 
the law.
    The impact of this broad interpretation, if rolled into 
federal regulation, will mean more permits, additional permit 
requirements, and government and environmental group scrutiny 
of the things we do in agriculture, and the threat of 
additional litigation against farmers and ranchers. CWA 
jurisdiction also triggers other federal requirements, such as 
enforcement under the Endangered Species Act, National 
Environmental Policy Act, and National Historic Preservation 
Act. This draft proposal, by itself, has created much outrage 
in farm country toward the EPA.
    The Clean Water Act was enacted in 1972 and limited federal 
jurisdiction to navigable waters of the United States. Congress 
at that time explicitly left a role for state regulation of 
certain waters by stating, ``It is the policy of the Congress 
to recognize, preserve, and protect the primary 
responsibilities and rights of states to prevent, reduce, and 
eliminate pollution.'' In 2001 and in 2006, the U.S. Supreme 
Court reaffirmed those limits on federal authority. It appears 
that the EPA now seeks to extend its authority beyond the 
limits approved by Congress and reaffirmed by the U.S. Supreme 
Court.
    The Supreme Court decisions reaffirmed that the term 
``navigable waters'' under the CWA does not extend to all 
waters. It is important to note that, shortly after those court 
decisions, legislation was introduced to overturn them. Despite 
aggressive lobbying campaigns, bills in both the House and the 
Senate failed to even reach a Floor vote. That happened 
primarily for two reasons. First, leaders from both parties 
continue to strongly support the structure and goals of the CWA 
and do not want to see the EPA intrude on traditional state 
prerogatives relating to land use planning and economic growth. 
Second, the legislation would have allowed EPA to use the CWA 
to regulate activities even on dry land and even when those 
activities are not connected to interstate commerce. Such an 
overreach goes well beyond anything contemplated by the framers 
of the 1972 law.
    We are also troubled that EPA seems to routinely ignore the 
requirement that SAB panels be fairly balanced. The Agency 
routinely selects scientists who are EPA grantees to serve on 
SAB panels, and EPA grantees are by definition financially 
dependent on EPA and couldn't possibly serve as independent 
advisory panelists. According to the Congressional Research 
Service, nearly 60 percent of the members of EPA's chartered 
SAB panels have received EPA research grants that total nearly 
140 million taxpayer dollars.
    On the other hand, private sector expertise on SAB panels 
is typically minimal, and in many cases entirely excluded, 
despite statutory requirements that membership ``be fairly 
balanced in terms of the points of view represented.'' It is 
also evident that SAB panel members are not afraid to take 
strong policy preferences on issues in which they are being 
asked to provide impartial scientific reviews.
    Mr. Chairman, we applaud your efforts to ensure an open, 
transparent, and fair scientific SAB investigation process and 
we appreciate your efforts to get EPA to answer these and other 
important scientific questions.
    And I will be happy to answer any questions at this time. 
Thank you.
    [The prepared statement of Mr. Dierschke follows:]

    [GRAPHIC] [TIFF OMITTED] T8134.115
    
    [GRAPHIC] [TIFF OMITTED] T8134.116
    
    [GRAPHIC] [TIFF OMITTED] T8134.117
    
    [GRAPHIC] [TIFF OMITTED] T8134.118
    
    Chairman Smith. Thank you, Mr. Dierschke.
    Dr. Craft.

                 TESTIMONY OF DR. ELENA CRAFT,

                       HEALTH SCIENTIST,

                   ENVIRONMENTAL DEFENSE FUND

    Dr. Craft. Chairman Smith, Ranking Member Johnson, and 
members of the committee, it is an honor to have the 
opportunity to testify today about the scientific justification 
of environmental protections in the State of Texas. Thank you.
    My name is Elena Craft. I serve as a Health Scientist with 
Environmental Defense Fund, a national nonpartisan, nonprofit, 
science-based environmental organization. I earned my graduate 
degrees in North Carolina and got to Texas as quickly as I 
could. After that, I met my husband, who is a computer 
engineer, and we have a native Texan on the way who is also 
happy to be here.
    So I hold an adjunct assistant professorship at the 
University of Texas School of Public Health and I work on a 
range of regional and national issues primarily with regard to 
air quality. Texans have a lot to gain from reductions in 
emissions of pollutants such as ozone, mercury, and other air 
toxics and greenhouse gases. We can have a cleaner environment 
as well as a vibrant economy, but right now, Texas is lagging 
behind other states, and the costs of the state's inaction are 
being charged to the taxpayers in terms of health. This issue 
is exacerbated by the high rates of those uninsured in our 
state. Texas has the highest rate of uninsured adults, 33 
percent, the highest rate of uninsured children in the country 
at 17 percent.
    Texas has not taken advantage of ample opportunities to go 
ahead and get ahead of federal policy by developing its own 
laws and regulations to reduce pollution and now we are behind. 
Right now, almost 15 million Texans breathe air that does not 
meet federal health-based standards for ozone that were set 
back in 2008. Perhaps what is most concerning about ozone in 
Texas is that, since 2009, ozone design values have either 
increased or remained relatively stagnant in the three largest 
metropolitan areas. Hundreds of doctors and scientists across 
the country are concerned about the impact that ozone is having 
on public health and have been aggressively advocating for even 
more protective standards.
    Mercury is another pollutant of health concern across the 
country but especially within Texas. Mercury is a neurotoxin 
that jeopardizes brain development of infants and children. 
Texas is home to 6 of the 10 highest-emitting coal plants for 
Mercury in the United States. EPA rules are justified, 
achievable, and cost-effective. Many Texas businesses are well-
positioned to adopt the new standards, and initial cost 
estimates for compliance have proven to be overstated.
    With regard to the cross state air pollution, in Texas 
specifically, reducing pollution will save up to 1,700 lives 
per year in the state and provide approximately 14 billion in 
benefits to Texas each year. Independent analysts have assessed 
the potential for the State of Texas to comply with the Cross 
State Rule without costly upgrades or plant closures.
    The Mercury and Air Toxics Standards are the first 
nationwide limits on power sector emissions of mercury and are 
expected to have a net positive impact on overall employment as 
well as economic benefits that outweigh costs by up to 9 to 1. 
states across the nation have been preparing for these 
standards for years. Plants in Illinois, New Hampshire, 
Wisconsin, Maryland have all taken steps to reduce mercury, and 
recent statements from utility companies on the standards 
suggest that implementation is going smoothly and that 
compliance costs will be less than originally expected.
    With regard to greenhouse gases, since January 2011, large 
power plants and industrial facilities that are newly 
constructed have been obligated to use the most efficient and 
best-available technologies, taking into account costs and 
technical feasibility. Whereas almost all states have revised 
their Clean Air Act regulations to incorporate these new 
requirements, Texas unfortunately has refused to implement this 
program.
    Others have found that implementing efficiency and best-
available control technologies for greenhouse gases is a cost-
effective and reasonable process. One of our Nation's largest 
utilities, Calpine Corporation, recently submitted a brief in 
the Supreme Court supporting the application of these 
requirements for greenhouse gas regulations and noting that 
obtaining the permits did not delay or add significant costs. 
Nationwide, over 100 greenhouse gas permits have been issued as 
of September 2013 in at least a dozen major industrial sectors.
    Texas' legal action have jeopardized the ability of 
facilities and the state to conduct business. While other 
states have been planning for new pollution controls, Texas has 
stood in the way. Mercury emissions from Texas' electric 
utilities have remained relatively consistent since 2001 even 
though 17 other states have taken measures to reduce mercury 
from their power plants. Texas is the only state that didn't 
work with EPA to ensure smooth greenhouse gas permitting, 
though other states, even ones that disagreed with EPA on 
greenhouse gas permitting, had plans in place so that business 
would not be disrupted.
    The science on air pollution is clear. It is a killer and 
we are paying the price on pollution whether we admit it or 
not. And if we don't take aggressive action now, then we are 
jeopardizing the future of all Texans.
    Thank you.
    [The prepared statement of Dr. Craft follows:]

    [GRAPHIC] [TIFF OMITTED] T8134.119
    
    [GRAPHIC] [TIFF OMITTED] T8134.120
    
    [GRAPHIC] [TIFF OMITTED] T8134.121
    
    [GRAPHIC] [TIFF OMITTED] T8134.122
    
    [GRAPHIC] [TIFF OMITTED] T8134.123
    
    [GRAPHIC] [TIFF OMITTED] T8134.124
    
    [GRAPHIC] [TIFF OMITTED] T8134.125
    
    [GRAPHIC] [TIFF OMITTED] T8134.126
    
    [GRAPHIC] [TIFF OMITTED] T8134.127
    
    [GRAPHIC] [TIFF OMITTED] T8134.128
    
    [GRAPHIC] [TIFF OMITTED] T8134.129
    
    [GRAPHIC] [TIFF OMITTED] T8134.130
    
    [GRAPHIC] [TIFF OMITTED] T8134.131
    
    [GRAPHIC] [TIFF OMITTED] T8134.132
    
    [GRAPHIC] [TIFF OMITTED] T8134.133
    
    Chairman Smith. Thank you, Dr. Craft.
    Dr. Weinstein.

              TESTIMONY OF DR. BERNARD WEINSTEIN,

      ASSOCIATE DIRECTOR OF THE MAGUIRE ENERGY INSTITUTE,

                    COX SCHOOL OF BUSINESS,

                 SOUTHERN METHODIST UNIVERSITY

    Dr. Weinstein. Thank you, Mr. Chairman, Ms. Vice Chairman, 
and members of the committee, for the invitation to be here. I 
am Bud Weinstein with the Maguire Energy Institute at Southern 
Methodist University.
    Let me talk for a minute first about the economy of Texas. 
We have heard from other speakers that the economy is in pretty 
good shape. We added 252,000 jobs last year. That was--we were 
number one in the Nation. In fact, we were number one for the 
fourth consecutive year in job creation. In percentage terms, 
we were second to North Dakota. There were more people living 
on my block in Manhattan than the entire State of North Dakota, 
so it is easy to see a big percentage gain in that state.
    But what is happening in North Dakota is similar to what is 
happening in Texas. In fact, Texas has accounted for about 50 
percent of all the jobs created in the Nation since 2000. And 
we weren't immune from the Great Recession. We lost lots of 
jobs just like the rest of the country, but today, we are 
600,000 jobs ahead of where we were in 2008, while most states 
haven't recovered the job losses from the Great Recession, nor 
has the United States as a whole.
    What is going on in Texas? Well, obviously, part of it is 
the energy boom, the so-called shale revolution. Texas accounts 
for 25 percent of the Nation's oil and gas production. It has 
been on a tear in recent years. If we were an independent 
country, we would be the 15th-largest oil and gas producing 
state--country in the world. But the energy boom in Texas and 
North Dakota and Pennsylvania isn't just benefiting those 
states; it is benefiting the entire country. It is benefiting 
households and businesses as a result of lower costs for 
heating and for electricity. It is helping our exports. It has 
been a boon to the petrochemical industry. It is improving the 
competitiveness of U.S. manufacturing, and that is one of the 
reasons that our trade deficit is shrinking.
    But Texas is also thriving because we have what I call a 
positive business climate and cost-effective, sensible 
regulation of energy and other sectors of our economy. And 
contrary to what we have heard from Dr. Craft, Texas is not a 
toxic wasteland. I mean we care very much about the quality of 
our air, the quality of our water, the quality of our land, but 
we try to ensure that regulation is cost-effective and it isn't 
burdensome to the point of discouraging investment.
    Is the EPA overreaching? We have heard a number of 
examples. I am not going to repeat what we have heard from 
other witnesses. I do have some comments in my written 
testimony about the Cross State Air Pollution Rule and the 
Utility MACT and what some independent assessments conclude 
would be the costs or will be the costs of implementing 
regulations, particularly the impact on the coal industry and 
how that in turn can affect the cost of electricity and not 
only in Texas but throughout the country. And it is pretty 
significant.
    But I want to talk for a couple of minutes about these 
greenhouse gas regulations. The fact is that we have got about 
35 percent of our power generation in Texas coming from coal. 
There is no existing coal plant in our state or in the nation 
probably that could meet the standards that have been proposed 
for new power plants, and we have yet to see what is coming 
down the pike for existing power plants.
    You know, Texas--you know, not only do we generate coal, we 
have got a dozen coalmines in our state; the coal industry both 
on the production side and the power generation side represents 
a lot of jobs. We are also concerned in Texas about the 
potentially onerous carbon regulations in terms of how they may 
affect our refineries. We have 25 percent of the Nation's 
refining capacity. There is some good news, as we heard from 
the Chairman of TCEQ about this new agreement with EPA on 
flexible permitting. But all of these regulations have 
implications for grid reliability and not just in Texas but 
across the United States. And--but it comes down to this: if we 
kill coal, if coal goes offline too rapidly, it is not clear 
that we have alternatives that can substitute for that lost 
coal in short order. It is going to take time to change the 
power mix in the United States.
    Finally, some comments on fracking. The notion of the EPA 
getting into the business of hydraulic fracturing is very much 
in vogue. EPA is champing at the bit. I like to liken it to a 
party to which the EPA wasn't invited and isn't needed, and I 
say that because EPA oversight of hydraulic fracturing is just 
going to be another overlay that is going to push up the costs 
of regulation and could stymie the shale revolution. And 
furthermore, not all shales are created equally. I mean if we 
have one national standard, that is going to cause all kinds of 
problems because the Eagle Ford in Texas is different from the 
Marcellus in Pennsylvania. So why have another cost--another 
layer of regulatory oversight when there is absolutely no 
evidence that Texas and other states are doing a poor job of 
overseeing hydraulic fracturing?
    And we need to keep in mind that regulation is not cost-
free. I did a study for the Joint Economic Committee 30 years 
ago on the cost of regulation, and that study really laid the 
groundwork for a lot of the regulatory reform that we saw in 
the 1980s and '90s. And one of the things we found in that 
study is that you have got to be real careful when you do cost-
benefit analysis, and that is particularly true of the EPA. And 
I think it is fair to say that the EPA hasn't been especially 
transparent. Let me just give you one example. EPA is assuming 
a cost of carbon of $30 a ton. Do you know what carbon is 
trading for in Europe? $5 a ton. So this is just one example of 
the EPA's assumptions maybe being out of whack with reality.
    Now, look, careful--you know, careful oversight of the 
energy industry is necessary. I am certainly not opposed to 
that, but what does concern me is what I perceive to be 
overreach by EPA and other federal regulatory agencies that 
could derail the energy revolution that has been a real game-
changer for the United States.
    A colleague and I authored this book about--we call it 
``The Energy Logjam: Removing Regulatory Obstacles to Fuel the 
Economy.'' There is a link to it in my testimony. If any of you 
would like a hard copy, I would be happy to supply you with 
one.
    Thank you.
    [The prepared statement of Dr. Weinstein follows:]

    [GRAPHIC] [TIFF OMITTED] T8134.134
    
    [GRAPHIC] [TIFF OMITTED] T8134.135
    
    [GRAPHIC] [TIFF OMITTED] T8134.136
    
    [GRAPHIC] [TIFF OMITTED] T8134.137
    
    [GRAPHIC] [TIFF OMITTED] T8134.138
    
    [GRAPHIC] [TIFF OMITTED] T8134.139
    
    [GRAPHIC] [TIFF OMITTED] T8134.140
    
    [GRAPHIC] [TIFF OMITTED] T8134.141
    
    [GRAPHIC] [TIFF OMITTED] T8134.142
    
    [GRAPHIC] [TIFF OMITTED] T8134.143
    
    [GRAPHIC] [TIFF OMITTED] T8134.144
    
    Chairman Smith. Thank you, Dr. Weinstein.
    I will recognize myself for questions and would like to 
address the first one to Dr. Shaw. Dr. Shaw, the EPA says that 
its power plant regulations apply only to coal but isn't it a 
fact that the so-called coal-powered plant regulations could 
also apply to natural gas power plants or manufacturers or even 
refineries?
    Hon. Shaw. Thank you, Chairman. I think it is not only 
likely that it could but I think it would be clearly 
appropriate to assume that it will. I think that if you look at 
a number of examples we have seen where, especially with regard 
to greenhouse gas, it seems that the approach is to, as I like 
to say, get the camel's nose under the tent and at that point 
you can no longer get the camel out very easily. I will give 
you an example very quickly is I think that is similar to what 
we see from the standpoint of EPA's action to include carbon 
capture and sequestration in their new source rule that they 
proposed. If there--as they said, there is no coal-fired plants 
going to be built, there is no benefit, no cost to the rule, 
why would they make that extraordinary effort to suggest that 
that is achievable unless at some point they are looking at 
that, making it more easy to require such technologies to 
existing sources?
    Chairman Smith. Okay. Thank you, Dr. Shaw.
    Mr. Porter, in regard to fracking, particularly fracking at 
Eagle Ford in South Texas, what is the Railroad Commission 
doing to protect the groundwater from being contaminated?
    Hon. Porter. One of the most important things to do as far 
as protecting groundwater from being contaminated whether you 
are talking about hydraulic fracturing or conventional well 
drilling is what we addressed when we redid our Rule 13 as far 
as making sure that wellbore integrity is there, that the 
concrete jobs or cement jobs are well done, that type of 
rulemaking and that is what we--that is the reason we redid 
that and that is what we are working on.
    Chairman Smith. Okay. Thank you, Mr. Porter.
    Mr. Dierschke, EPA says it is clarifying its Clean Water 
Act rulemaking. Why does that make you nervous and why do you 
think they are going beyond just clarification? If you could--
yeah, make sure your mic is on. Okay.
    Mr. Dierschke. I am from West Texas and if you are familiar 
with West Texas which I think you are is that our rainfall out 
there--and I think you heard in some of my testimony I was 
concerned about the dryland, some of the activities----
    Chairman Smith. Right.
    Mr. Dierschke. --that they are working on dryland, but in 
our area we get a good rain about every eight years whether we 
need it or not.
    Chairman Smith. Whether you need it or not, yes.
    Mr. Dierschke. Yes, so I am really concerned that they are 
going after some of the streams and dry riverbeds that would 
cause us as ranchers and farmers and private property owners in 
our part of the state or in Texas real concerns about what will 
happen if they get control of all the water in Texas. We think 
that that will be a real problem. It will be a problem with 
keeping up with all the regulations that will be implied.
    And we are good stewards of the land. Farmers and ranchers 
and private property owners and all the citizens of Texas have 
been pretty good stewards of the land, we think, and using our 
resources very, very efficiently. And we also have the NRCS 
that is out there that we work through. It does a very good 
job. It writes the current time on soil erosion and those kind 
of problems that----
    Chairman Smith. Okay.
    Mr. Dierschke. --supposedly are out there.
    Chairman Smith. Okay. Thank you, Mr. Dierschke. I 
appreciate that.
    Dr. Weinstein, you talked about Texas' economy and you 
talked about indirectly the United States' economy. What is the 
cumulative impact of the EPA's regulations on particularly 
energy production throughout the United States and subsequently 
the economy?
    Dr. Weinstein. Well, it is not just EPA. There are a host 
of regulatory agencies that are intruding into the energy 
sector, and I am not saying that all that intrusion is harmful. 
Some of it is necessary. But, you know, one could cite not 
only, you know, EPA regulations for greenhouse gas emissions, 
the Bureau of Land Management regulations on hydraulic 
fracturing on federal lands. Most federal lands are off-limits 
to drilling. Virtually all of our offshore fields are off-
limits to drilling right now. Much of Alaska is off-limits. 
There--we just have a host of regulatory restrictions and legal 
restrictions that impede our ability to develop our energy 
resource to their fullest.
    And I realize this isn't a hearing on energy exports but, 
you know, I think it is time to at least start talking about 
exporting oil, which is currently prohibited. We do have four 
permits approved for natural gas facilities to export liquefied 
natural gas. There are another dozen applications pending. If I 
had my way, I would be expediting those permits. The--you know, 
the world is hungry for gas and we have got the largest gas 
supply in the world so why don't we export it? So I mean I 
could go on and on but there are just many, many areas where 
federal policy is impeding the development of our energy 
resources.
    Chairman Smith. Okay. Thank you, Dr. Weinstein.
    That concludes my questions and the Ranking Member, Ms. 
Johnson, is recognized for hers.
    Ms. Johnson. Thank you, Mr. Chairman.
    Dr. Craft, in your testimony you state that an estimated 
6.5 million people in the Dallas-Fort Worth area are breathing 
air that does not meet the federal health standards for ozone. 
You also indicate that, due to concerns over high levels of 
ozone, the Dallas Medical Association petitioned the Texas 
Commission on Environmental Quality to reduce pollution from 
three coal-fired power plants that contribute to high ozone 
level in Dallas. Is the current EPA ozone standard adequate to 
protect public health or can you tell us more about the health 
effects from exposure to ozone?
    Dr. Craft. Yes, thank you. So currently, the EPA ozone 
standard is not adequate to protect public health, as has been 
mentioned and supported by hundreds of scientists and doctors 
around the country.
    I want to be clear about one specific item. EPA is not 
trying to set some de minimis risk level where we won't have 
any exposure effects from ozone. The estimate in the slope 
factor for the risk is in the range where we see exposures 
right now. And what that means is that because we are in the 
range where the risk is occurring, EPA is simply trying to 
reduce that risk by lowering the standard. The degree to which 
that standard is lowered is informed by volumes of evidence 
ranging from mechanistic studies, epidemiological studies and 
human exposure studies. We are not getting rid of all of the 
risk just because we happen to lower the standard.
    With regard to the health implications of ozone, ozone at 
concentrations below the current standard is linked to impaired 
breathing and increased use of medicine for children with 
asthma and to increased visits to hospitals and emergency rooms 
for lung diseases. We also know that ozone is linked to 
cardiovascular events and premature death, as well as new 
research linking ozone to low birth weight in newborns.
    I wanted to just clarify one point, too, that was made by 
Chairman Shaw regarding the flexible permits. The flexible 
permits issue was not something that came up recently. That 
issue has been going on for two decades back when Ann Richards 
was Governor of Texas. And so, you know, we--I am really happy 
to hear that the state is working well with EPA. The fact is is 
that most of the facilities that had flexible permits, which is 
around 140 facilities in the state, had already transitioned 
out of those permits, so just a quick point of clarification 
there. Thank you.
    Ms. Johnson. Industry groups in states complained that the 
background ozone levels are a major obstacle for communities in 
meeting current ozone standards. Has EPA created any 
flexibility in its compliance for programs for states with 
these challenges?
    Dr. Craft. So EPA's newest review, which was released I 
guess earlier this week, does use advances in modeling 
techniques to estimate contributions of different sources of 
ozone in the atmosphere. What we know is that it doesn't matter 
where the ozone comes from. The health affect is there. And so 
when EPA sets the standard, by law it must base that decision 
solely on what it takes to protect public health with an 
adequate margin of safety. In other words, the only legitimate 
concern is the impact on human health. So thank you very much.
    Ms. Johnson. Thank you. It is critical that we begin to 
take steps towards curbing our carbon emissions to address 
climate change, and I support the EPA's pursuit of sound 
scientifically-based greenhouse gas rules that will spur a new 
generation of clean electricity-generating facilities and curb 
harmful carbon emissions in some of our Nation's oldest coal- 
and natural gas-fired plants.
    I find some of the arguments by my colleagues across the 
aisle that are addressing climate change as too costly to be 
the height of irresponsibility given that we already know that 
our planet is growing increasingly warm as a direct result of 
human activities. And let me hasten so I can give you this 
question. What are the environmental and public health risks if 
unchecked carbon pollution at coal and natural gas plants is 
allowed to continue, Dr. Craft?
    Dr. Craft. Thank you. So in September of 2013, an 
Intergovernmental Panel on Climate Change report was released 
with seven key findings. It is virtually certain that the 
planet has warmed since the mid-20th century. Scientists are 95 
percent certain that humans are the principal cause. Further 
warming is imminent and short-term records do not reflect long-
term climate trends. The surface could warm anywhere from 2.7 
to 7.2 degrees. The melting pace of land ice is accelerating in 
the Arctic and Antarctica. The IPCC's estimates of temperature 
and sea level rise are conservative and weather extremes are 
expected to change from human influence.
    Now, with regard to the health publications of all of these 
impacts, in 2010 the National Institute of Environmental Health 
Sciences, which is the premier environmental health 
organization in the world, NRTP published a report on the human 
health consequences from climate change. The report found 11 
human health impacts as a result of climate change, including 
increases in asthma, respiratory allergies, and airway 
diseases; increases in cancer; increases in cardiovascular 
disease and stroke; increases in foodborne diseases and 
nutrition; increases in heat-related morbidity and mortality; 
human developmental effects; mental health and stress-related 
disorders; neurological diseases and disorders; vector-borne 
and zoonotic diseases; water-borne diseases; and weather-
related morbidity and mortality. Thank you.
    Ms. Johnson. My time is expired. Thank you.
    Chairman Smith. Thank you, Ms. Johnson.
    The Chairman Emeritus, the gentleman from Texas, Mr. Hall, 
is recognized for his questions.
    Mr. Hall. I thank you, Mr. Chairman, and I thank you for 
holding this important committee and hearing and I thank the 
witnesses, at least most of them, for their testimony.
    And ahead of this hearing, though, the Committee received a 
letter from the Texas Association of Business. You know, that 
is the bipartisan organization representing thousands of Texas 
companies and small businesses. The letter outlines a variety 
of concerns with the scientific basis of many EPA regulations 
pointing out that ``many of these actions are not based on 
valid scientific evidence.'' The Association further argues 
that ``EPA regulations that increase energy costs and reduce 
employment force individuals to make economic choices that 
could negatively impact their health and welfare.''
    Mr. Chairman, this letter has been shared with the minority 
and I would ask unanimous consent that it be placed in the 
record.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Hall. And, Mr. Chairman, I will go ahead with my 
questions if I might.
    Our committee has played a very important role, I think, in 
providing effective oversight of the EPA for several years. And 
I was here when we wrote the Clean Air Act and the Clean Water 
Act, and I am embarrassed that we gave the EPA--we built them 
into some role of authority because I thought even the energy 
people that I support day in and day out needed some oversight 
and they also needed some help from our government. The State 
of Texas is a case study of the EPA's overreach and I 
appreciate the expert witnesses who are appearing here today 
and thank you for your testimony.
    We have had several hearings that have focused on the 
faulty science behind EPA's proposed regulations under the 
Clean Air Act and other hearings about the EPA's faulty 
conclusions about the safety of hydraulic fracturing. Today, we 
have heard testimony from Mr. Dierschke, President of the Texas 
Farm Bureau concerning a draft proposed rule by the EPA and the 
U.S. Army Corps of Engineers that would expand the EPA's 
regulatory authority under the Clean Water Act, a proposal that 
would have very serious implications for our nation's farmers 
and ranchers. Mr. Dierschke, you stated in your testimony that 
you believe ``the draft rule fails to comply with the important 
regulatory safeguards and is based on a scientific report that 
had not been sufficiently peer-reviewed.'' Would you like to 
elaborate on that on the regulatory safeguards that have been 
ignored and the lack of sufficient peer review? A lot of them 
have testified here. I was Chairman of this committee for two 
years and on occasion from the EPA I would want to remind them 
that they were under oath. And of course you all are under oath 
when you come here, and sometimes I think they have stretched 
the importance or lack of scientific background that they 
testified to. I think that is a dangerous thing for them to be 
doing. Would you like to give me an answer on my question?
    Mr. Dierschke. We have questions also about the SAB and 
their appointees about whether they are acting in response to 
some of the things they are supposed to be doing. But we--the 
biggest concern we have is that the EPA doesn't support maybe 
some of the recommendations of the SAB.
    Mr. Hall. Mr. Dierschke, you also noted that it is 
troubling that EPA's report implies that because nearly all 
water is in some way connected, EPA's authority under the Clean 
Water Act is virtually limitless. Can you--do you want to 
describe the term ``playa lakes'' and their existence in the 
South Plains of Texas and describe farming practices in and 
around such?
    Mr. Dierschke. I will try that. Mr. Neugebauer, Congressman 
Neugebauer probably knows more about playa lakes than I do, but 
historically, they are----
    Mr. Hall. Yeah, but you are under oath and I can't get him 
under oath.
    Mr. Dierschke. You can't get him? Maybe you should try that 
sometime. Anyway, it is my knowledge that playa lakes were--
once upon a time were buffalo when they were roaming the 
plains.
    Mr. Hall. I remember that.
    Mr. Dierschke. You remember that? Well, I was chasing those 
buffaloes also. But when buffaloes came to watering holes and 
they stood there and that is kind of where those developed, and 
they are mostly south of Lubbock and on the South Plains. They 
have no connections to each other, so when you talk about 
navigable waters, I don't know how you can have a playa lake 
considered to where one would be going into the--one would be 
overflowing into the other. I have never seen that in my 
lifetime but it could possibly have happened. But anyway, that 
is my explanation of the playa lakes.
    Mr. Hall. Well, my time is almost up but let me just close 
and ask you what would be the impact of an EPA determination 
that creeks and streams on your place are ``navigable waters?'' 
You have got time to answer me.
    Mr. Dierschke. Okay. I think that--me personally, I have 
several ranches and I have some farmland and I think it would 
be--more regulations, we would be under and we would have to--
forms that we would have to fill out, it would just be 
economically not a disaster but it would be a real problem to 
fill these forms out. I have gone into the NRSC to talk about 
some water quality issues, and when you go in there and talk--
start talking about dry streambeds where they may not run for 
15 or 20 years, they are wanting us to put fences around them 
to keep livestock out of them and those kind of things. So 
there would be a lot of more expense, so our expensive--our 
inexpensive farm and agricultural sector I think will be 
carrying a lot of burden.
    Mr. Hall. And I thank you. My time is up.
    Chairman Smith. Thank you, Mr. Hall.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Dr. Craft, we continue to hear concerns about the 
possibility of water contamination and other problems like 
earthquakes in connection with natural gas development. For 
example, Mr. Steve Lipsky and his wife from Parker County, 
Texas, who I understand are in the audience today, have been in 
a dispute with the EPA, the Texas Railroad Commission, and the 
owners and operators of a gas field near their home. Now, some 
of our witnesses today have suggested that the EPA does not 
have a role in ensuring that families such as the Lipskys have 
safe drinking water. So do you agree with that premise, 
especially when the homeowners have drinking water that is 
effervescing and can be set on fire? Thank you.
    Dr. Craft. Thank you. So there have been 42 cases of 
confirmed groundwater contamination under the jurisdiction of 
the Railroad Commission's oil and gas division in 2012. Whether 
they were related to fracking or other elements of the drilling 
process have not necessarily been determined, but I think it 
speaks to the fact that groundwater contamination is an issue 
with regard to drilling and we do need to have some interaction 
between the states and the federal government to ensure that 
groundwater is protected. I can think of no better example than 
what just happened in West Virginia with regard to the leaking 
storage vessel. You know, that was a situation where we need to 
make sure that we have an understanding of all of the risks 
associated with the processes.
    Ms. Bonamici. Thank you. And, as I understand, the EPA is 
currently carrying out a detailed study to determine whether 
there is a link between hydraulic fracturing activities and 
groundwater contamination. Is such a study important and why? 
And I have a couple more questions so briefly----
    Dr. Craft. Sure. Sure. Yes, that is important. I mean, in 
order to be able to understand the health implications, we need 
to understand that risk. So any information that we have to 
collect that risk and to understand it is definitely needed.
    Ms. Bonamici. Thank you. And, Dr. Craft, some claim that 
the EPA's regulation of carbon pollution from future coal 
plants will destroy or kill the industry, but several 
independent analyses have found that other factors are 
currently playing a very significant role in the projections 
for coal in the United states, regardless of potential carbon 
regulations. For example, could you talk a bit about the 
current competition between coal and natural gas industries? Is 
this competition at least a partial reason if not the primary 
reason for the lack of construction of new coal plants across 
the country?
    Dr. Craft. So if we want cheaper energy, building coal 
plants right now doesn't make sense, irrespective of EPA 
regulations. The EPA should not be blamed for coal being too 
expensive. In the most recent Energy Information Administration 
analysis of construction and operation costs of new generation, 
new coal without CCS, they found that it is more expensive than 
wind, baseload natural gas, and geothermal power. All of these 
can provide ample baseload generation including coastal wind, 
which is a strong and level output through the day. In 
addition, new coal--solar power plants are regularly financed 
at cost or 30 percent lower than the cost of new coal. Now, 
there is not public information on this but Austin Energy has 
publicly stated that they have seen offers at $70 per megawatt 
hour or lower for solar, while according to the EIA, new coal 
is $100 per megawatt hour. So thank you.
    Ms. Bonamici. Thank you. And I have another question as 
well. There has been some discussion about the jurisdiction 
under the Clean Water Act and some suggestion that it is clear 
when there is jurisdiction under the Clean Water Act and 
actually not quite. Can you discuss a bit about when the there 
is jurisdiction under the Clean Water Act and why it is 
important that water be clean, even sometimes water that is 
running through private property if there is some nexus or 
connection with other waterways? Thank you.
    Dr. Craft. Well, my expertise is not in water and legal 
issues, so I don't know that I would be able to answer that 
question directly but I would be happy to supply some 
information on that.
    Ms. Bonamici. Thank you very much. And I yield back the 
balance of my time. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from Texas, Mr. Neugebauer, is recognized for 
his questions.
    Mr. Neugebauer. Well, thank you, Mr. Chairman, and thank 
you for holding this important hearing.
    Chairman Shaw, thank you for being here. Over the past 6 
months, my colleagues and I have repeatedly questioned EPA 
about their conclusion that carbon capture and sequestration or 
CCS technology is commercially available and/or adequately 
demonstrated in a manner sufficient to impose it as a 
requirement on a new coal plants. Based on your technical 
expertise, do you believe that the CCS technology has been 
adequately demonstrated?
    Hon. Shaw. Thank you. No, sir, I do not believe that is the 
case. We have actually conducted a study in September of 2012 
evaluating our clean energy programs and concluded that at the 
time there were no plants that were achieving that, and more 
importantly today, there are no plants that I am aware of that 
are even under construction or planning that don't have 
significant federal funding to support that. And so there 
brings to mind the issue that there is a significant parasitic 
load associated with carbon capture and storage and that cost 
not only is economic but requires building bigger plants to get 
the same generation capacity, requires more fuel to generate 
that capacity later, and what is often I think ignored is the 
fact that it will tend to increase the emissions of other 
pollutants of concern in order to get the same megawatt down 
the wire. You are burning more fuel; you are having more 
emissions of the non-greenhouse gas emissions. Just because you 
are capturing CO<INF>2</INF> doesn't make those more healthy. 
So there is a lot of implication of that that I think cause 
concern.
    Mr. Neugebauer. Yeah, and I think one of the points that 
you made is that many of the projects that are being sited as 
an example of this actually are getting some federal 
assistance. And if I am correct, that makes them not eligible 
to be considered commercially available.
    Hon. Shaw. That is currently--certainly the role that we 
use in Texas. We make that evaluation, that it has to be 
commercially viable and has to be one that has not received 
funding from state or federal agencies in order to ensure that 
that is commercially viable, not just can you spend enough 
money to get it done. And so, yes, you are correct.
    Mr. Neugebauer. Mr. Chairman, I would like to ask unanimous 
consent to enter in the record TCEQ's report analyzing the 
commercial availability of CCS in the context of Texas efforts' 
on----
    Chairman Smith. Okay. Without objection.
    [The information appears in Appendix II]
    Mr. Neugebauer. Recently, EPA's Science Advisory Board, the 
SAB or SAB, however you want to pronounce that--West Texas has 
a little bit different inflection on some of those words--
declined to review the science behind EPA's inclusion of a 
requirement in their CO<INF>2</INF> standards for new power 
plants based on EPA's claim that the rule only applies to the 
capture of carbon emissions and not storage or sequestration of 
captured carbon. This seems like a bureaucratic response to me 
that doesn't seem to address the simple reality that captured 
CO<INF>2</INF> has to go somewhere. Dr. Shaw, you want to----
    Hon. Shaw. Certainly. I had the same--the same facts jumped 
off the page at me whenever I read it and heard about that. It 
seems interesting if you are an agency that is looking at 
having great transparency, that you would appear to try to 
discourage the Science Advisory Board from reviewing carbon 
capture and sequestration and then to go through the 
extraordinary means of suggesting that sequestration is not a 
part of that. As you point out, clearly, if you are going to 
capture it, you need to do something with that. It makes one 
wonder why they are concerned about having a further scientific 
review of the process.
    Mr. Neugebauer. I think one of the concerns that this 
Committee has had is that the EPA seems to want to shy away 
from any kind of evaluation of the science and, you know, I 
think most everybody thinks that the science ought to be 
driving the policy and not the policy driving the science.
    One last question. Mr. Dierschke, thank you for being here. 
You know, I want to follow up with what Mr. Hall, I think, 
started in towards the end. You have several ranches and in 
many parts of the country we don't have stream fed tanks for 
cattle to get water from. Some of them are stream fed but some 
of them are captured by runoff and so forth. And, you know, if 
EPA begins to move in the direction that some of us fear, where 
are your cattle going to get a drink?
    Mr. Dierschke. That is an excellent question. We are not 
real sure because they want to fence off the streambeds and 
keep the cattle from the streambeds because of the 
contamination and those kind of things, so we are not sure. A 
lot of places we don't have groundwater and we rely on surface 
water for stock water. And it will probably--once again, we 
will either have to get out of the business or we will be with 
a very big expense of hauling water from somewhere. We will 
have to purchase water and haul it to them, which will increase 
the price of beef at the supermarket.
    Mr. Neugebauer. Yeah, I think on top of already a pretty 
tough cattle market because we have had fairly severe drought 
around cattle country and I think cattle numbers are at an all-
time low now and for--and so now the federal government wants 
to restrict where you--additional opportunities to water your 
cattle. It doesn't make a lot of sense. But thank you so much 
for your--being here.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Neugebauer.
    The gentleman from California, Mr. Takano, is recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    You know, I come from an area of the country in Southern 
California that has been greatly benefited by the Clean Air 
Act, inland Southern California. And as a teenager and as a 
child, I remember having to deal with smog alerts, and we don't 
have those as much anymore. And so, you know, I am mightily 
grateful for Mr. Hall and others who participated in the 
creation of EPA for the tremendous progress we have made in 
clean air.
    Dr. Weinstein, I want to ask you something. Today's hearing 
is entitled ``Examining the Science of EPA Overreach: A Case 
Study in Texas.'' I understand that you are an accomplished 
economist but you don't have any substantive experience or 
expertise in environmental science or public health, is that 
right?
    Dr. Weinstein. I am not formally trained in those areas, 
no.
    Mr. Takano. Great. On your financial disclosure form, you 
wrote that you were only representing yourself today and have 
not had a federal grant or contract since October 2011, but 
your biography says that you have been a consultant for AT&T, 
Texas Instruments, Reliant, Entergy, Devon Energy, the Nuclear 
Energy Institute, and the Cities of Dallas and San Antonio, 
Texas, among other places. Can you tell us which private 
companies you have consulted for since October 2011?
    Dr. Weinstein. I haven't consulted with any private 
companies since then. I am on the board of a bank.
    Mr. Takano. Okay. The Beal Financial Corporation?
    Dr. Weinstein. Yes.
    Mr. Takano. And you have been a director of Beal Financial 
Corporation since the early 1990s?
    Dr. Weinstein. I have been on the board for 22 years, yes.
    Mr. Takano. And are you still a director of that company?
    Dr. Weinstein. Yes.
    Mr. Takano. You said yes. Did you receive any financial 
compensation as a director of Beal Financial Corporation?
    Dr. Weinstein. Yes.
    Mr. Takano. Okay. Do you know if Beal Financial Corporation 
or Beal Bank and their affiliate companies have made any loans 
to the oil and gas industry?
    Dr. Weinstein. I don't believe so.
    Mr. Takano. And I have some financial records that--on the 
corporations--I mean so I have some documents that would show 
that the Beal Corporation has made loans.
    Dr. Weinstein. Can you tell me to whom they were made?
    Mr. Takano. Just a second here. Let me find it.
    Dr. Weinstein. We do--we have made some loans to utilities.
    Mr. Takano. Well, let's see. If you bear with me for a 
moment. We see Merchant Power Plant, $336,700,000 term loan; 
Odessa Power, $280 million; Merchant Power Plant, $215 million; 
Allegheny Energy, Greenberg, Pennsylvania, $185 million. I 
could go on but----
    Dr. Weinstein. Well, as I said, we have made loans to the 
power generation industry. You asked me if we had made any 
loans to the oil and gas industry and not to my knowledge.
    Mr. Takano. Okay. Well, fair enough. But don't you think 
that on your form that you submitted to the Committee you said 
that you were only representing yourself----
    Dr. Weinstein. Yes.
    Mr. Takano. --and that you have had--well, I just thing 
having this information that your connection--your business 
connections would have been----
    Dr. Weinstein. It is all on my resume. I answered the 
questions on the form honestly.
    Mr. Takano. My--I understand but I still feel that this 
disclosure, you know, would have been helpful for members of 
the committee and the public to understand how your testimony 
might----
    Dr. Weinstein. You are----
    Mr. Takano. --be colored by----
    Dr. Weinstein. I think you are implying that my testimony 
is somehow colored by the fact that the bank on whose board I 
sit has made loans to the power-generating sector. I am not on 
the loan committee. I oversee the general operations of the 
bank, but I--frankly, I resent the implication that somehow my 
testimony has been colored by the fact that the bank on whose 
board I sit has been making loans to the power-generation 
industry.
    Mr. Takano. Well, nevertheless, the title of this hearing 
is ``Examining the Science of EPA'' and you clearly don't have 
a background in public health or environmental science, but you 
do have a background in----
    Dr. Weinstein. I have a background in economic----
    Mr. Takano. --economics----
    Dr. Weinstein. --science, yes.
    Mr. Takano. All right. Thank you.
    I yield back, Mr. Chairman.
    Chairman Smith. Okay. Thank you, Mr. Takano.
    The gentleman from Arizona, Mr. Schweikert, is recognized 
for his questions.
    Mr. Schweikert. Thank you, Mr. Chairman. It is interesting 
to sit in a hearing where all you Easterners--okay, that is 
funny--Arizona--never mind. There are a handful of different 
questions I wanted to sort of try to run and it is the joy of 
having only five minutes. On the panel who would be most 
comfortable with navigable waters of the United States in a 
background question? Anyone want to take a run?
    Hon. Shaw. I can take a stab at it.
    Mr. Schweikert. Okay. You understand some of the rule 
promulgations, some of the mechanics out there right now. 
Succinctly, how broad are some of the operational definitions 
moving right now?
    Hon. Shaw. Some of the definitions that are being 
considered are extremely broad. You know, the--including 
prairie potholes, slews, things that--those playa lakes that--
any body of water I think would be potentially included in some 
of the most broad definitions.
    Mr. Schweikert. In some of the meetings, seminars, briefs 
you have read, areas that have not actually had consistent 
water running through them for decades and decades and decades?
    Hon. Shaw. Correct. Even in some cases where water might 
traverse through a pipeline has been considered, which no 
physical connection except for manmade connection has been 
bandied about in some of those discussions as well.
    Mr. Schweikert. Okay. Mr. Chairman, the reason for this 
particular question is I represent the Phoenix area and we have 
the Salt River that literally was a seasonal flow. It literally 
has not flowed for 100 years. And we have actually now put 
parks and recreation and we have actually cleaned up some 
brownfields and we have been very diligent and it seems about 
every ten years we go through this battle of, well, someone 
once went down a raft on it 100 years ago during a flood, so 
therefore, it might fall into the definition, and what is 
horribly frustrating about this is often it is a barrier to 
good conduct, good, you know, community efforts to clean up and 
do things and now we are fearful of other layers of 
bureaucracy. So I don't know if that sort of fits into some of 
the narratives you have heard out there.
    Dr. Craft, you have an interesting specialty. You have a 
little one on the way? Congratulations. Are you sure you 
wouldn't want to be--or he or she wouldn't want to become an 
Arizonan instead of a Texan?
    Mr. Hall. Texan. Tell him Texan.
    Mr. Schweikert. I love my Texas brothers and sisters, but 
even on the right and left, I swear it is a cult. But that is a 
different discussion.
    I have noticed in your testimony a couple of times you have 
sort of focused on ozone, so I am assuming that is somewhat in 
your area of specialization in your research?
    Dr. Craft. Well, we are very concerned about ozone because 
of the ozone concentrations in Houston and as well the fact 
that ozone concentrations are increasing in some of the Texas 
major cities.
    Mr. Schweikert. Okay. But, I never play gotcha, so this 
is----
    Dr. Craft. Okay.
    Mr. Schweikert. I am trying to be very honest in dialogue. 
But one of the statistical backgrounds you specialize in your 
data sets as a researcher?
    Dr. Craft. Am I a statistician? I am not a statistician.
    Mr. Schweikert. Okay. Well, then--all right.
    Dr. Craft. Okay.
    Mr. Schweikert. But even from the narrative of ozone and I 
know it is complicated; there are lots of moving parts. Can you 
give me a little background of your understanding of just sort 
of organic background ozone, ozone that actually is affected by 
literally activities of--you know, around the world and how you 
sort of do--if you were ever doing a data set, how you would 
reach out and do a normalization for those types of activities? 
And why this is important is it being from the desert 
Southwest, we have certain benchmark that is just there with 
man, without human--I mean it is--there are certain things that 
are going to exist. When you are looking at the data set, how 
do you do a normalization for it?
    Dr. Craft. Well, that is more of an air modeling question 
as opposed to a statistical question or a health-based 
question. What we look at more of is the health implication of 
the exposure to that ozone, and that doesn't matter where the 
ozone was formed or how it got there, whether it was 
background, which in most cases has been shown not to impact 
whether an area meets the federal attainment guidelines.
    Mr. Schweikert. Okay. As a researcher, particularly when 
looking at health data sets and affects on some populations, do 
you have a concern that sort of our static regulatory 
environment doesn't seem to move nearly as fast as technology 
and that sometimes there is technological opportunities out 
there but because we have sort of a command-and-control 
regulatory environment, we are always a decade or sometimes 
more behind in regulatory design compared to current 
technology?
    Dr. Craft. Well, I think that is an issue we probably have 
across a number of----
    Mr. Schweikert. Well, no, that is systemic and a command-
and-control regulatory environment instead of sort of a crowd-
source type of creative, flexible regulatory environment.
    Dr. Craft. Right. I mean I guess I would say that the 
science on, say, ozone for instance is revised every several 
years to reflect the latest science and there are over 17,000 
articles just yesterday if you look in PubMed on ozone and 
health. And so there is more information that is pulled into 
the record on a routine basis.
    Mr. Schweikert. I know I am way over time, Mr. Chairman. 
Thank you for your patience. The doctor actually hit one of my 
fixations of sometimes the arrogance of what we think we know 
on how things work today will be different tomorrow because our 
understanding of the data and how it is modeled and where it is 
different and how are we going to have these discussions, make 
sure we are designing optionality and flexibility in these 
things. So thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Schweikert.
    The gentlewoman from Maryland, Ms. Edwards, is recognized 
for her questions.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to the witnesses.
    I really feel good about today because I feel like I don't 
have to ask anymore about whether climate change is a fact. I 
mean the President said it last week in his State of the Union 
message and I am just going to take it as a given that climate 
change is a fact so we don't have to debate that.
    My question goes to Dr. Craft. In your testimony you cite 
an article from the Texas Tribune that is titled 
``Antiregulation Politics May Have Hurt Energy Industry.'' As I 
understand it, the EPA began requiring greenhouse gas permits 
about three years ago that TCEQ refused to enact the rule and 
EPA had to step in and begin issuing permits. Can you describe 
the current situation and how what can only be called heel-
dragging by TCEQ has negatively impacted Texas businesses and 
jobs and created regulatory uncertainty?
    Dr. Craft. Yes, thank you. So we have been very concerned. 
This is one of the points in my opening statement about Texas' 
unwillingness to address the issue of greenhouse permits in our 
state. Like I said, we were the only state in the Nation that 
did not work with EPA to ensure greenhouse gas permits. 
Essentially, what happened is that once facilities--Texas 
penned some very aggressive language to EPA saying that they 
were--they did not have any intention at all to change their 
rules to be able to issue greenhouse gas permits. And as a 
result, the deadline came, there was no permitting authority 
within the state, so facilities that needed those greenhouse 
gas permits could not get them. EPA stepped in and had a 
federal implementation plan so that those facilities could 
continue to operate. This is a situation where, had EPA not 
stepped in, businesses would not have had a permitting 
authority by which to obtain permits to operate in the state. 
What----
    Ms. Edwards. So Texas' refusal to actually issue the 
permits could have caused havoc within the industry sector had 
EPA not stepped in?
    Dr. Craft. Well, exactly, and it did cause havoc within the 
business sector. It resulted in essentially a dual permitting 
authority situation in the state whereby facilities had to go 
to EPA for their greenhouse gas permits and then they had to go 
to the TCEQ for their air permits. When businesses realized 
that this was the implication, they recognized that it was a 
dual permitting authority. It was very onerous to do that, and 
the Texas Pipeline Association, which I think is mentioned in 
the article, they said that more than 50 planned projects since 
early 2011 have been significantly delayed by the Texas 
permitting process putting 48,000 jobs at risk. What has 
happened is TCEQ has recognized that they need to be the 
permitting authority for greenhouse gases and they are now in 
the process of trying to transition to be the--to issue those 
permits instead of EPA, but, you know, like I said, it has 
caused a dual permitting authority situation and it is bad for 
business in Texas.
    Ms. Edwards. Thank you very much. I mean, you know, it 
really is clear to me--I mean there are other states that went 
about the implementation because it is the law and the 
regulations. TCEQ decided not to do that and has wreaked havoc 
in the industry, perhaps cost jobs and cost to the industry 
because of a dual permitting process that is actually far more 
onerous. So I appreciate your sharing that.
    I have one other question for you, and it is actually 
related to just regulating. You know, we have heard in some of 
the testimony that companies shouldn't have to disclose the 
names of chemicals contained in fracking fluids and a question 
around transparency. Could you just talk for a minute about 
what it means for, for example, the 300,000 people in West 
Virginia who are left without usable water to drink, cook, or 
bathe in and it is still a problem there just last month 
because of failure to disclose those chemicals and how 
dangerous that is to public health.
    Dr. Craft. Sure. So we have been looking at the chemicals 
that are used in the hydraulic fracturing process, and I can 
tell you EPA is also looking at this issue. For many, many, 
many of those compounds--and there are thousands of compounds 
that are used--they are not used in very high concentrations 
but the fact is is that we don't know a lot of information 
about the toxicity of those individual compounds. And so even 
though they might be used in small concentrations, there are 
issues with transportation of those compounds to the site, for 
instance. There are other factors which play a role in terms of 
risk and health. And so we are very interested in understanding 
that risk and toxicity of compounds that might be found in 
fracking fluid compounds.
    Ms. Edwards. Thank you. I just wanted to ask Dr.--Mr. 
Dierschke, you didn't mean to suggest that because EPA was 
putting--requiring fences to be put around places of water 
contamination that it would be better for Texas cattle to drink 
the contaminated water for the beef that we eat, right?
    Mr. Dierschke. They have been doing it for centuries, so I 
suppose they will survive. The cattle will drink the stream 
water.
    Ms. Edwards. Right. So you are okay with the cattle 
drinking the contaminated water and then us consuming the beef? 
You are okay with that?
    Mr. Dierschke. As long as science is----
    Ms. Edwards. All right. Thank you.
    Chairman Smith. Thank you, Ms. Edwards.
    The gentleman from Arizona, Mr. Schweikert, is recognized 
for a unanimous consent request.
    Mr. Schweikert. Forgive me, Mr. Chairman. In my rush to ask 
a dozen different questions, I had a letter from the Water 
Advocacy Coalition I just wanted to put into the record.
    Chairman Smith. Okay. Without objection, thank you.
    [The information appears in Appendix II]
    Chairman Smith. And the gentleman from Texas, Mr. Weber, is 
recognized for his questions.
    Mr. Weber. Thank you.
    Mr. Dierschke, why don't you all just put up signs that say 
don't drink the contaminated water, okay?
    Glad to hear that the President announced that global 
warming is--climate change is a fact and so we no longer have 
to be concerned about it. I didn't know that hope and change 
was--I didn't know that that meant climate change, okay, but 
then again, he never said if you like your climate, you can 
keep it. I just want to get that out of the way.
    Mr. Weinstein, I am glad to hear that your business 
actually makes money by loaning money to industry and I regret 
that the gentleman from California is not here. I would suggest 
that you all meet up afterwards and you give him a course in 
economics that that is how this country survives.
    And I want to address the foot-dragging question of the 
TCEQ, and the fact that Texas is losing jobs or could be losing 
jobs. I think Dr. Craft issued that concern, and we are glad 
you are concerned and we are glad you are in Texas. As Mr. 
Weinstein so aptly pointed out, Texas has created more jobs 
than any other state of the lesser 49 states in the Union and 
so can you imagine what we would have done, you know? Gosh, we 
could have really been off to gangbusters had it not been for 
the foot-dragging of TCEQ. I do want to address that.
    And by the way, Dr. Craft, we are glad that even you 
recognize Texas is the place to be. So are you glad----
    Dr. Craft. Thank you. I just wanted to comment that it 
wasn't my comment about the jobs. It was the Texas Pipeline 
Association----
    Mr. Weber. No, I got you.
    Dr. Craft. --so just a clarification.
    Mr. Weber. Yeah. No, I got you. And there is a lot of them 
in Texas, and as you probably know, the pipeline has a 99.9 
percent safety rating. It is the safest way to move oil or 
transport oil.
    But, Dr. Shaw, I want to go to you. Foot-dragging on the 
part of the TCEQ--and I was in the Texas legislature. I was on 
the Environmental Reg Committee. I watched it very closely. How 
did you all get that past me?
    Hon. Shaw. Well, Congressman, one of the things I think 
that is key that I have been asked to--and I have a 
responsibility to fulfill in my duty as Chairman of the 
Commission on Environmental Quality is first to uphold the law. 
And once we made the determination that we didn't have the 
legal authority to issue those permits, it no longer was an 
issue about whether I liked it or wanted it. It was an issue at 
its core about whether it is legal to do that. Furthermore, 
this was definitely an issue that has longer-standing 
implications from a principle standpoint. There were--imagine 
if you will what regulations we would be looking at from EPA at 
this point with regard to new and existing sources of CO<INF>2</INF> 
had Texas and other states not questioned the deadline that EPA 
gave about two months when we had to decide if we were going to 
comply with that. We might see even more burdensome and less 
science-based regulations had we not questioned and taken a 
stand. So we have a hearing before the Supreme Court next month 
that also was on this issue and perhaps at the end of the day 
things might look a little different.
    Mr. Weber. Well, I appreciate that.
    And, Dr. Craft, you are quite the Twitterer it turns out. I 
think you have even mentioned in one of your tweets that Greg 
Abbott has been busy suing the federal government, our great 
attorney general. Do you remember that?
    Dr. Craft. Personally, I have not tweeted in a long time. I 
do more blogging than I do tweeting, but----
    Mr. Weber. Right.
    Dr. Craft. --I am trying to get better about it because----
    Mr. Weber. I have been able to find a couple of those, and 
I would submit what Dr. Shaw mentioned was that if our great 
attorney general, soon to be governor, had not been busy suing 
the federal government and keeping them out of Texas, then Dr. 
Weinstein would not have been able to make the statement that 
Texas has been leading the way for creating jobs in this 
country.
    Dr. Craft. Well, I guess, you know, my concern was really 
that it is not clear what the theory of victory was there. I 
mean, you know, what would be the harm of going ahead and 
working with the EPA to establish the permits while you are 
challenging them? And just one comment about the Supreme Court 
case that is coming up, the Supreme Court case is not going to 
hear the argument----
    Mr. Weber. Let me----
    Dr. Craft. --about the endangerment finding----
    Mr. Weber. Let me cut you off----
    Dr. Craft. --which is that----
    Mr. Weber. I got you.
    Dr. Craft. --he is there----
    Mr. Weber. I am running out of time. Carbon capture and 
sequestration, I have the three coastal counties of Texas 
coming from Louisiana going West and Southwest. Valero has a 
plant in Port Arthur, carbon capture and sequestration, the 
largest I would say arguably in the world; I am sure it is in 
the United states. Are any of you on the panel aware that it 
was built with 66 percent federal dollars from the Department 
of Energy from the American Reinvestment and Recovery Act? And 
so when you start talking about CCS, carbon capture 
sequestration storage, double S there, it is not economically 
feasible.
    We had the CEO from Mississippi Power in to speak to the 
House Energy Action Team where they have cost overruns because 
of CCS in the hundreds of millions of dollars. It is not 
duplicable, it is not efficient, it is not effective, and there 
is no way that we can say that it can be duplicated on a large 
scale. Are you all aware of that? Apparently somebody is 
calling me and I have been on hold too long. Are you aware that 
it is not duplicable, Doctor?
    Hon. Shaw. Yeah, correct, Congressman. You are absolutely 
correct that I am aware of no commercially demonstrated even 
close----
    Mr. Weber. Right.
    Hon. Shaw. --and the costs are significant.
    Mr. Weber. Thank you. Mr. Chairman, if I may, just one 
quick question to Mr. Porter. Forty-two cases of contaminated 
wells was the figure bandied around under the Railroad 
Commission's watch. Do you remember that comment?
    Hon. Porter. Yes, I heard the comment.
    Mr. Weber. Okay. How many wells in Texas?
    Chairman Smith. Mr. Weber, your time is----
    Mr. Weber. A couple hundred thousand? Help me out here.
    Hon. Porter. About 400,000 roughly.
    Mr. Weber. Yeah. All right. Thank you.
    Chairman Smith. Thank you, Mr. Weber.
    The gentleman from Texas, Mr. Veasey, is recognized.
    Mr. Beasley. Thank you, Mr. Chairman.
    I wanted to ask Mr. Porter a quick question. Oftentimes on 
this Committee or just we are talking about these environmental 
issues in general, it often gets deduced down to very black and 
white, you know, very simple style issues. And I wanted to 
specifically ask you about your hearing that you had on the 
earthquakes in Parker County not too long ago and I believe in 
Azle. You got about 1,000 people to show up to that meeting. 
And tell us just very quickly--people were very concerned about 
that, is that right?
    Hon. Porter. Yes, you are correct, Mr. Congressman. They 
were extremely concerned about that. And of course we at the 
Commission are concerned about it. We are trying to make sure 
that we understand exactly what is going on as far as the 
science and what the evidence is showing us. We have moved to 
hire a seismologist at the Railroad Commission. In fact, I 
believe interviews of that seismologist are starting today for 
that position. We are trying to gain a clear understanding of 
exactly what is happening and what kind of activity, if any, 
that we need to do at the Commission. You know, when people are 
having problems with their homes there, of course extremely 
concerned as the folks in Azle were.
    Mr. Beasley. Right. Well, I appreciate that. And the reason 
I wanted to bring that up again is that, you know, it is 
oftentimes on this committee--it gets very--the argument gets 
very black and white, Republican versus Democrat type issues, 
but in Azle, that is a very, very, very conservative area, 
probably one of the most conservative areas in the entire 
state, definitely in North Texas. And people there were 
concerned about the earthquakes, just--not just people that are 
liberals concerned about earthquakes. So the last time we had 
the issue on earthquakes, that was how the discussion ended up 
being deduced down to and so I wanted to bring that up.
    Dr. Shaw, good to see you again from my days serving on the 
Environmental Regulation Committee with Mr. Weber, and I wanted 
to talk with you about something that has come out lately and 
that is the pro-business stance that is bad for Texas that has 
been talked about a lot. And the--I know that one of your 
missions on the TCEQ is sustainable economic development, but 
the failure of Texas to adopt the 2010 EPA rule has resulted in 
the backlog of about 80 permits waiting for approval at EPA. 
This has delayed construction of facilities in Texas ranging 
from natural gas power plants, natural gas compressors, 
chemical processing facilities, and has even resulted in a 
decline in drilling activity in the Barnett Shale in the area 
that I represent. Wouldn't it have been better for Texas to 
work with the EPA instead of making lawyers rich and going into 
these costly court battles?
    Hon. Shaw. Congressman, thank you. Certainly, my desired 
approach is always to work together, and unfortunately, the 
discussions that we had with EPA were not fruitful in that 
manner. For example, the letter that we--or the mandate that we 
got from EPA was that we were given about 2 months to decide if 
we were going to move forward with allowing EPA's regulatory 
scheme and we were going to implement that. I will refresh your 
memory that at that point we had no idea what regulating under 
EPA's program would mean because they had yet to give any 
information about what BACT, best available control technology, 
would mean for regulating greenhouse gases. So at that point 
they were asking us to commit to doing something that we 
arguably determined we didn't have the legal authority to deal 
with, as well as the fact that we didn't have any understanding 
of what EPA thought that would mean. And so we felt that it was 
appropriate, certainly the legal aspect is enough, but that it 
made sense for us to continue to try to work with EPA to 
maintain an opportunity to ensure the regulations were not 
overly draconian. And long-term, we are still not out of the 
woods yet.
    One of the things I will remind you of is that EPA passed 
what is called the Tailoring Rule, and if you recall, the 
justification for that was the Absurdity Doctrine--I don't know 
if I have that right--the Absurd Results Doctrine in that EPA 
wanted to avoid the absurd result of having the Clean Air Act 
applied as written to greenhouse gas regulations because, 
according to EPA's own number, that would result in I think 6 
million additional permits across the United States. They----
    Mr. Beasley. Let me ask you one more question because my 
time is about to expire----
    Hon. Shaw. Sure.
    Mr. Beasley. --here. As someone that is concerned about 
sustained economic development that--which is part of the 
mission of your organization, the lawyer for the Texas Pipeline 
Association said that there has been a lot of flaring of 
associated gas and that the delay in the permitting process has 
put about 48,000 jobs at risk in our state. Again, don't you 
think that it would have been better to work with the EPA and 
save these jobs, these 48,000 jobs, because right now all the 
jobs that we are creating in Texas--not all the jobs but the 
majority of jobs that we are creating in Texas are service-
related jobs that pay a lot less than these 48,000 jobs would 
have paid in the oil and gas industry?
    Hon. Shaw. Right. As I mentioned, one, we didn't have the 
legal authority; and two, had we not taken the stand, I would 
contend that we would have even greater loss of jobs had we not 
taken a stand to force EPA to base their regulations in science 
and to have a more reasoned approach moving forward because 
this is the tip of the iceberg. Right now, we are looking at--
certainly Texas has been performing well relative to other 
states. Could it have been better? Yes. Would we like that to 
have happened? Yes. And certainly we are moving as we are given 
authority from the Texas legislature to be the permitting 
authority for greenhouse gases. But clearly, there are longer-
term economic and, I would contend, environmental damages 
associated with EPA's approach with greenhouse gas at this 
point.
    So we took a principled stand. We are going to work and--as 
we have been to continue to find ways to streamline the 
process, but we felt that the immediate cost was less than what 
the long-term costs would have been.
    Mr. Beasley. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Beasley.
    The gentleman from New York, Mr. Collins, is recognized.
    Mr. Collins. Thank you, Mr. Chairman.
    It has really been interesting being on this committee with 
so many Texans and hearing the debate today on the growth and 
the jobs and the economic activity. And as a New Yorker 
representing the highest-taxed, most-regulated, least-business-
friendly state in the nation where we count how many jobs we 
lose, and if we lose a few less this year than we lost last 
year, somehow within New York's mindset, that is considered a 
win. So I do represent New York but don't agree at all with the 
tax and regulatory status of our state and say that that speaks 
volumes about what is right about Texas and not right about New 
York.
    But, Dr. Craft, you made a statement that I want to 
clarify. You stated that coastal wind is more economical than 
coal?
    Dr. Craft. I believe I said that coastal wind was--did not 
have--is consistent is what the point was of that statement.
    Mr. Collins. Oh, it is consistent but you said it was----
    Dr. Craft. More consistent----
    Mr. Collins. --less expensive than coal.
    Dr. Craft. I would have to go back and look. I have some 
notes of my comments. I don't remember saying that.
    Mr. Collins. Okay. I mean wind is generally considered 
twice as expensive as coal, and if you take away the subsidies 
and it is interesting whenever I hear folks talk about wind, 
they never talk about how wind is so heavily subsidized. And if 
you take the subsidy away, then every cost number that you ever 
see put out relative to wind is gone.
    Dr. Craft. Well, you know, Texas is generating more wind 
energy than any other state in the Nation right now, so----
    Mr. Collins. Well----
    Dr. Craft. --it is a big----
    Mr. Collins. It is.
    Dr. Craft. Yeah.
    Mr. Collins. And because of the tax credits and the 
production tax credit, it is incentivized in a way that makes 
it more affordable than otherwise. So I would just suggest 
that--because I thought I heard you say that wind was more 
cost-effective than coal, and it is clearly not.
    Dr. Craft. I can clarify----
    Mr. Collins. Dr. Weinstein, I would like to just as a 
member of the committee say I appreciated your testimony and 
certainly would suggest that the line of questioning directed 
toward you probably speaks volumes to how accurate your 
testimony was and how hard-hitting it was when the only 
question that came back had absolutely nothing to do with your 
testimony. So thank you for that testimony.
    But I would like to really----
    Dr. Weinstein. Let me say something about your question on 
coastal wind.
    Mr. Collins. Yes.
    Dr. Weinstein. The most recent study of comparative costs 
conducted by the Energy Information Administration for 
different energy power-generating sources in the year 2016 
combining both the construction and operating expenses found 
that solar thermal would be the most expensive and coastal wind 
would be the second-most expensive.
    Mr. Collins. Right. And those are the same facts that I 
have always understood to be the case. Representing Western New 
York, there was a proposal to put wind turbines out in Lake 
Erie. As the county executive, I can tell you I fought that 
every which way I could. And when the numbers came out, to the 
extent it had any economic viability, it was all based on tax 
credits, not real costs. So in a day when our country is 
running deficits and debt, the last thing we should be doing is 
providing tax credits to an industry that is mature. So I would 
just let that stand.
    Now, Mr. Dierschke, I represent the most agricultural 
district in New York. It is about 90 percent of the economy of 
the 27th Congressional District, a lot of dairy, a lot of 
specialty crops and the like. And I can tell you my farmers 
will tell you the EPA is one of the biggest impediments they 
have to expanding their farms and that every dollar they spend 
adhering to these EPA regulations, some of which are absolutely 
outlandish, especially when it comes to wetlands, is a dollar 
not invested in expanding their farms. And I just in my closing 
moments would like to hear your overview of farmers in Texas to 
see if they share some of those same concerns as our New York 
farmers.
    Mr. Dierschke. I think the Texas farmers and ranchers and 
private landowners also, we are getting a lot of fractured up 
ranches, a lot of ranchettes coming in, and they are also 
expressing their disappointment in having to--what all they 
have to do with involvement with EPA. So I am trying to be as 
nice as I can in----
    Mr. Collins. Well, my farmers aren't very nice. They just 
call it out right for what it is. Were it not for some of these 
overreaching EPA requirements defining in some cases mud 
puddles as wetlands and worrying about the runoff from their 
dairy farms into their own pond, they would be investing more 
money, growing their farms, producing more milk in the 27th 
Congressional Districts. They don't pull any punches 
whatsoever.
    Mr. Dierschke. Okay. I will agree with you on that.
    Mr. Collins. Thank you all very much. I yield back, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Collins.
    The gentleman from Georgia, Mr. Broun, is recognized.
    Mr. Broun. Thank you, Mr. Chairman.
    The Clean Air Act has traditionally been grounded in 
cooperative federalism where the federal government and the 
states worked together to enforce air regulations. However, it 
has been widely known that the EPA does the bidding of special 
interest groups by way of sue-and-settle agreements. The Sierra 
Club targeted 36 states whose air programs EPA had previously 
approved, forcing them to change their State Implementation 
Plans or ``face adverse EPA action.''
    The Attorney General from my beloved State of Georgia, 
along with 11 other states including Texas, have filed a 
Freedom of Information Act request for information on EPA's 
settlements and 45 lawsuits brought by environmental groups. 
EPA denied it for being too broad and failing to, as they 
described, ``adequately describe the record sought.'' On 
February 6 of 2013 the states filed a new request and a fee 
waiver regarding the CAA's Regional Haze Program. Both were 
denied. After an appeal, the states filed a federal lawsuit. I 
would like to enter into the record this release from the 
Georgia State's Attorney General Office that I understand was 
shared with the minority yesterday, Mr. Chairman.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Broun. Thank you, Mr. Chairman.
    Chairman Shaw, using some of EPA's recent regulatory 
decisions on the basis of your comments, how would you 
characterize the current relationship between the EPA and the 
states?
    Hon. Shaw. It has been one where EPA has been less 
interested in having that cooperative federalism you talked 
about take place and more interested in taking efforts to have 
a one-sized-fits-all or, as was quoted to me from some 
administrators of EPA, to level the playing field, suggesting 
that EPA should do more than set the criteria that we are 
trying to attain and let the creativity----
    Mr. Broun. So they are not working with you all very much 
at all. Okay.
    Given your experience to date with the EPA concerning 
issues such as Cross State Air Pollution Rule, Regional Haze, 
and the Flexible Permit Program, are you concerned about the 
role states like Georgia and Texas will play in future EPA 
regulations like carbon limits for existing power plants?
    Hon. Shaw. Extremely so. I think it is critical that we be 
involved and I am concerned that we may not be able to have 
influence on the EPA's programs to move forward in the manner 
that allows us to have strong environmental programs that 
aren't damaged by greenhouse gas programs, for example, as well 
as maintain economic competitiveness.
    Mr. Broun. The EPA claimed that states were given notice in 
this SIP call. Do you believe the states and the public at 
large have an adequate opportunity to comment on policies that 
the EPA effectively issues through guidance?
    Hon. Shaw. I think guidance is one of those issues that is 
of great concern because EPA has often argued that it is not 
legally enforceable, and yet, in practicality, it is. So they 
can issue guidance. If there is no opportunity for public 
comment and input, they basically go through an ad hoc 
rulemaking process that doesn't have any oversight, and I think 
that is poor policymaking and leads to decisions that are 
certainly not transparent and leads to bad decisions.
    Mr. Broun. And not scientifically based either, is that 
correct?
    Hon. Shaw. Well, there is no way to know if they are to be 
able to bring to bear review to ensure that they are. So it 
makes it much easier for bad science to be--or no science to be 
involved in setting those rules.
    Mr. Broun. There is no transparency as such. It seems to me 
that this Administration that said it was going to be the most 
transparent administration, their definition of transparency is 
obscurity.
    Where does Texas stand with their numerous FOIA requests 
and lawsuit filed by the 12 states?
    Hon. Shaw. To my understanding there has been no progress 
in getting access to those forms--or to the data, which is 
problematic as sunshine and public ability to look at raw data 
and to look at data helps to lead to better decisions.
    Mr. Broun. Do you know how many FOIA requests are being 
granted to the Sierra Club?
    Hon. Shaw. I do not but it is more than have been granted 
to us.
    Mr. Broun. Well, it is my understanding that as of May of 
2013, out of 15 requests from the Sierra Club, EPA has granted 
11. And the states are trying to do their business and are not 
granted what these environmental groups are.
    Hon. Shaw. And as partners, it certainly would be helpful 
for us as we are partners with the federal government in this 
cooperative federalism, it would seem that we would be at the 
front end of the list of getting access to shared data so that 
we can have informed and cooperative decision-making.
    Mr. Broun. Well, thank you, sir. I am a physician, I am a 
scientist, I am an applied scientist, and I just want to enter 
into the record that the idea of settled science is totally an 
unscientific philosophy. And we have seen a lot of people, 
particularly in this Administration--and my friends on the 
other side continue talking about settled science, about not 
only human-induced global warming but many other issues, and it 
is totally unscientific in that philosophy. There is should 
never be and never has been in the true scientific philosophy 
an idea about settled science.
    Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Broun.
    Let me thank our witnesses as well for your expert and 
much-appreciated testimony today. I happen to think it is nice 
to have an all-Texas panel every now and then, and we certainly 
did benefit from your knowledge and your testimony so----
    Mr. Broun. Mr. Chairman?
    Chairman Smith. The gentleman from Georgia.
    Mr. Broun. I want to thank you for having an all-Texas 
panel. I can understand all of them and I hope they can 
understand me being from Georgia, too. So thank you, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Broun. And we stand 
adjourned.
    [Whereupon, at 11:56 a.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by The Honorable Bryan Shaw

[GRAPHIC] [TIFF OMITTED] T8134.170

[GRAPHIC] [TIFF OMITTED] T8134.171

[GRAPHIC] [TIFF OMITTED] T8134.172

[GRAPHIC] [TIFF OMITTED] T8134.173

[GRAPHIC] [TIFF OMITTED] T8134.174

[GRAPHIC] [TIFF OMITTED] T8134.175

[GRAPHIC] [TIFF OMITTED] T8134.176

[GRAPHIC] [TIFF OMITTED] T8134.177

[GRAPHIC] [TIFF OMITTED] T8134.178

[GRAPHIC] [TIFF OMITTED] T8134.179

[GRAPHIC] [TIFF OMITTED] T8134.180

[GRAPHIC] [TIFF OMITTED] T8134.181

[GRAPHIC] [TIFF OMITTED] T8134.182

[GRAPHIC] [TIFF OMITTED] T8134.183

[GRAPHIC] [TIFF OMITTED] T8134.184

[GRAPHIC] [TIFF OMITTED] T8134.185

[GRAPHIC] [TIFF OMITTED] T8134.186

[GRAPHIC] [TIFF OMITTED] T8134.187

[GRAPHIC] [TIFF OMITTED] T8134.188

[GRAPHIC] [TIFF OMITTED] T8134.189

[GRAPHIC] [TIFF OMITTED] T8134.190

[GRAPHIC] [TIFF OMITTED] T8134.191

Responses by The Honorable David Porter

[GRAPHIC] [TIFF OMITTED] T8134.192

[GRAPHIC] [TIFF OMITTED] T8134.193

[GRAPHIC] [TIFF OMITTED] T8134.194

[GRAPHIC] [TIFF OMITTED] T8134.195

[GRAPHIC] [TIFF OMITTED] T8134.196

[GRAPHIC] [TIFF OMITTED] T8134.197

Responses Mr. Kenneth Dierschke

[GRAPHIC] [TIFF OMITTED] T8134.198

[GRAPHIC] [TIFF OMITTED] T8134.199

Responses by Dr. Bernard Weinstein

[GRAPHIC] [TIFF OMITTED] T8134.200

[GRAPHIC] [TIFF OMITTED] T8134.201

                              Appendix II

                              ----------                              


                   Additional Material for the Record


              Letter Submitted by Committee Chairman Smith

[GRAPHIC] [TIFF OMITTED] T8134.008

[GRAPHIC] [TIFF OMITTED] T8134.009

[GRAPHIC] [TIFF OMITTED] T8134.010

[GRAPHIC] [TIFF OMITTED] T8134.011

[GRAPHIC] [TIFF OMITTED] T8134.012

[GRAPHIC] [TIFF OMITTED] T8134.013

[GRAPHIC] [TIFF OMITTED] T8134.014

              Report Submitted by Committee Chairman Smith

[GRAPHIC] [TIFF OMITTED] T8134.202

[GRAPHIC] [TIFF OMITTED] T8134.203

[GRAPHIC] [TIFF OMITTED] T8134.204

[GRAPHIC] [TIFF OMITTED] T8134.205

[GRAPHIC] [TIFF OMITTED] T8134.206

[GRAPHIC] [TIFF OMITTED] T8134.207

   Letter submitted by Committee Ranking Member Eddie Bernice Johnson

[GRAPHIC] [TIFF OMITTED] T8134.017

[GRAPHIC] [TIFF OMITTED] T8134.018

   Letter submitted by Committee Ranking Member Eddie Bernice Johnson

[GRAPHIC] [TIFF OMITTED] T8134.019

[GRAPHIC] [TIFF OMITTED] T8134.020

[GRAPHIC] [TIFF OMITTED] T8134.021

[GRAPHIC] [TIFF OMITTED] T8134.022

[GRAPHIC] [TIFF OMITTED] T8134.023

[GRAPHIC] [TIFF OMITTED] T8134.024

[GRAPHIC] [TIFF OMITTED] T8134.025

[GRAPHIC] [TIFF OMITTED] T8134.026

[GRAPHIC] [TIFF OMITTED] T8134.027

[GRAPHIC] [TIFF OMITTED] T8134.028

[GRAPHIC] [TIFF OMITTED] T8134.029

[GRAPHIC] [TIFF OMITTED] T8134.030

[GRAPHIC] [TIFF OMITTED] T8134.031

[GRAPHIC] [TIFF OMITTED] T8134.032

   Letter submitted by Committee Ranking Member Eddie Bernice Johnson

[GRAPHIC] [TIFF OMITTED] T8134.033

[GRAPHIC] [TIFF OMITTED] T8134.034

[GRAPHIC] [TIFF OMITTED] T8134.035

[GRAPHIC] [TIFF OMITTED] T8134.036

[GRAPHIC] [TIFF OMITTED] T8134.037

[GRAPHIC] [TIFF OMITTED] T8134.038

[GRAPHIC] [TIFF OMITTED] T8134.039

[GRAPHIC] [TIFF OMITTED] T8134.040

[GRAPHIC] [TIFF OMITTED] T8134.041

[GRAPHIC] [TIFF OMITTED] T8134.042

[GRAPHIC] [TIFF OMITTED] T8134.043

[GRAPHIC] [TIFF OMITTED] T8134.044

[GRAPHIC] [TIFF OMITTED] T8134.045

[GRAPHIC] [TIFF OMITTED] T8134.046

[GRAPHIC] [TIFF OMITTED] T8134.047

[GRAPHIC] [TIFF OMITTED] T8134.048

[GRAPHIC] [TIFF OMITTED] T8134.049

[GRAPHIC] [TIFF OMITTED] T8134.050

[GRAPHIC] [TIFF OMITTED] T8134.051

[GRAPHIC] [TIFF OMITTED] T8134.052

[GRAPHIC] [TIFF OMITTED] T8134.053

[GRAPHIC] [TIFF OMITTED] T8134.054

[GRAPHIC] [TIFF OMITTED] T8134.055

[GRAPHIC] [TIFF OMITTED] T8134.056

[GRAPHIC] [TIFF OMITTED] T8134.057

[GRAPHIC] [TIFF OMITTED] T8134.058

[GRAPHIC] [TIFF OMITTED] T8134.059

[GRAPHIC] [TIFF OMITTED] T8134.060

   Letter submitted by Committee Ranking Member Eddie Bernice Johnson

[GRAPHIC] [TIFF OMITTED] T8134.061

            Letter submitted by Representative Ralph M. Hall

[GRAPHIC] [TIFF OMITTED] T8134.145

[GRAPHIC] [TIFF OMITTED] T8134.146

[GRAPHIC] [TIFF OMITTED] T8134.147

[GRAPHIC] [TIFF OMITTED] T8134.148

[GRAPHIC] [TIFF OMITTED] T8134.149

[GRAPHIC] [TIFF OMITTED] T8134.150

[GRAPHIC] [TIFF OMITTED] T8134.151

[GRAPHIC] [TIFF OMITTED] T8134.152

          Letter submitted by Representative Randy Neugebauer

[GRAPHIC] [TIFF OMITTED] T8134.153

[GRAPHIC] [TIFF OMITTED] T8134.154

[GRAPHIC] [TIFF OMITTED] T8134.155

[GRAPHIC] [TIFF OMITTED] T8134.156

[GRAPHIC] [TIFF OMITTED] T8134.157

[GRAPHIC] [TIFF OMITTED] T8134.158

[GRAPHIC] [TIFF OMITTED] T8134.159

[GRAPHIC] [TIFF OMITTED] T8134.160

[GRAPHIC] [TIFF OMITTED] T8134.161

          Letter submitted by Representative David Schweikert

[GRAPHIC] [TIFF OMITTED] T8134.162

[GRAPHIC] [TIFF OMITTED] T8134.163

[GRAPHIC] [TIFF OMITTED] T8134.164

[GRAPHIC] [TIFF OMITTED] T8134.165

[GRAPHIC] [TIFF OMITTED] T8134.166

            Letter submitted by Representative Paul C. Broun

[GRAPHIC] [TIFF OMITTED] T8134.167

[GRAPHIC] [TIFF OMITTED] T8134.168

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
